<html>
<title> - THREATS TO THE HOMELAND</title>
<body><pre>[Senate Hearing 115-573]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 115-573

                        THREATS TO THE HOMELAND

=======================================================================

                                HEARING

                              BEFORE THE

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS


                             FIRST SESSION

                               __________

                           SEPTEMBER 27, 2017

                               __________

        Available via the World Wide Web: http://www.govinfo.gov
        
        
                     Printed for the use of the
        Committee on Homeland Security and Governmental Affairs
        
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
29-657 PDF                  WASHINGTON : 2019                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).E-mail, 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4d2a3d220d2e383e392528213d632e222063">[email&#160;protected]</a>                       

                       

        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                    RON JOHNSON, Wisconsin, Chairman
JOHN McCAIN, Arizona                 CLAIRE McCASKILL, Missouri
ROB PORTMAN, Ohio                    THOMAS R. CARPER, Delaware
RAND PAUL, Kentucky                  JON TESTER, Montana
JAMES LANKFORD, Oklahoma             HEIDI HEITKAMP, North Dakota
MICHAEL B. ENZI, Wyoming             GARY C. PETERS, Michigan
JOHN HOEVEN, North Dakota            MAGGIE HASSAN, New Hampshire
STEVE DAINES, Montana                KAMALA D. HARRIS, California

                  Christopher R. Hixon, Staff Director
                Gabrielle D'Adamo Singer, Chief Counsel
                    Daniel P. Lips, Policy Director
                   Michael J. Lueptow, Senior Counsel
        Elizabeth E. McWhorter, Senior Professional Staff Member
               M. Scott Austin, U.S. Coast Guard Detailee
               Margaret E. Daum, Minority Staff Director
           Julie G. Klein, Minority Professional Staff Member
          Hannah M. Berner, Minority Professional Staff Member
                     Laura W. Kilbride, Chief Clerk
                   Bonni E. Dinerstein, Hearing Clerk

                            
                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Johnson..............................................     1
    Senator McCaskill............................................     2
    Senator Portman..............................................    12
    Senator Lankford.............................................    14
    Senator Heitkamp.............................................    16
    Senator Hassan...............................................    18
    Senator Peters...............................................    19
    Senator Carper...............................................    21
    Senator Harris...............................................    23
    Senator Hoeven...............................................    26
    Senator Tester...............................................    28
    Senator Daines...............................................    29
Prepared statements:
    Senator Johnson..............................................    45
    Senator McCaskill............................................    46

                               WITNESSES
                      Thursday, September 27, 2017

Honorable Elaine C. Duke, Acting Secretary, U.S. Department of 
  Homeland Security..............................................     4
Honorable Christopher A. Wray, Director, Federal Bureau of 
  Investigation, U.S. Department of Justice......................     6
Honorable Nicholas J. Rasmussen, Director, National 
  Counterterrorism Center, Office of the Director of National 
  Intelligence...................................................     7

                     Alphabetical List of Witnesses

Duke, Hon. Elaine C.:
    Testimony....................................................     4
    Prepared statement...........................................    48
Rasmussen, Hon. Nicholas J.:
    Testimony....................................................     7
    Prepared statement...........................................    67
Wray, Hon. Christopher A.:
    Testimony....................................................     6
    Prepared statement...........................................    59

                                APPENDIX

Countering Violent Extremism document............................    74
IG report........................................................    75
Letter from Alejandro Garcia Padilla.............................   160
DACA information.................................................   161
Responses to post-hearing questions for the Record:
    Ms. Duke.....................................................   195
    Mr. Wray (non-response)......................................   316
    Mr. Rasmussen................................................   324

 
                        THREATS TO THE HOMELAND

                              ----------                              


                      THURSDAY, SEPTEMBER 27, 2017

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:04 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Ron Johnson, 
Chairman of the Committee, presiding.
    Present: Senators Johnson, Portman, Lankford, Hoeven, 
Daines, McCaskill, Carper, Tester, Heitkamp, Peters, Hassan, 
and Harris.

             OPENING STATEMENT OF CHAIRMAN JOHNSON

    Chairman Johnson. Good morning. This hearing of the 
Homeland Security and Governmental Affairs Committee (HSGAC) is 
called to order.
    This is our annual ``Threats to the Homeland'' hearing. I 
want to welcome our witnesses. I would like to start, though, 
by acknowledging the victims of the hurricanes in Houston, 
Texas, in Florida, and throughout the Caribbean, but in 
particular Puerto Rico. I am sure we will be discussing that 
quite a bit. Maybe it was not contemplated when we first set 
this up and scheduled this hearing on the other enormous 
threats, but there are real threats to human life occurring now 
throughout our Nation, and we will certainly acknowledge that. 
All those individuals are in our thoughts and prayers. I am 
sure everybody on this Committee joins me in that.
    We are pleased to welcome the Acting Secretary of the 
Department of Homeland Security (DHS), Elaine Duke; the 
Director of the Federal Bureau of Investigation (FBI), 
Christopher Wray; and the Director of the National 
Counterterrorism Center (NCTC), Nicholas Rasmussen. We want to 
thank all of you for your service. These are perilous times. 
The threats that face our homeland are growing, they are 
evolving, they are metastasizing. I do not envy any of you your 
task. These are serious responsibilities, and we are all 
grateful that you stepped up to the plate and we have quality 
individuals with real talent that are accepting that 
responsibility.
    The mission statement of this Committee is pretty simple: 
To enhance the economic and national security of America and to 
promote more efficient, effective, accountable government. Very 
similar, I would imagine, to some of the mission statements of 
your own Departments and Agencies.
    I do not want to spend a whole lot of time because we have 
a number of Members here, but, again, I just want to 
acknowledge your service to this Nation, the sacrifice you and 
your families are undertaking to serve this Nation.
    And, with that, I will turn it over to Senator McCaskill.

           OPENING STATEMENT OF SENATOR MCCASKILL\1\

    Senator McCaskill. Thank you very much, Mr. Chairman.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator McCaskill appears in the 
Appendix on page 46.
---------------------------------------------------------------------------
    Directors Wray and Rasmussen, thank you for being here 
today. Secretary Duke, I welcome you to the Committee for the 
first time as the Department's Acting Secretary. I want to let 
you know that I appreciate the efforts that you and the Federal 
Emergency Management Agency (FEMA) are making to assist the 
victims of hurricanes in Texas, Florida, and Puerto Rico. I 
will have to say, though, we are very concerned about what we 
are seeing in Puerto Rico. I know there have been logistical 
challenges because of the devastation in Puerto Rico, but I am 
looking forward to the briefing that we are going to receive 
today from FEMA about what is actually occurring on the ground. 
And, those Americans are very deserving of whatever it takes 
for us to address the crisis, the humanitarian crisis that is 
impacting 3.5 million American citizens in Puerto Rico as we 
speak today.
    The hearing today is about threats to the homeland. 
Heartbreakingly, just last month, we suffered a terrorist 
attack here at home. The violence perpetrated by white 
supremacists and neo-Nazis at the Charlottesville rally was 
tragic, vile, and evil. It stunned many of us who thought the 
chants of ``Blood and Soil'' belonged in film footage from a 
Nuremberg rally, not a 21st Century American college. The 
boldness and the outspokenness of something that is so evil, 
proudly marching under a Nazi flag, is something that I think 
many of us did not think we would see in this country, but now 
we have seen it.
    I direct your attention to a document\2\ that is on the 
easel. I do not think many Americans understand the level of 
threat that we have in this county from white supremacists, 
anti-government, and other violent extremists. If you look at 
the comparison--and this data comes from the Government 
Accountability Office (GAO); this is not from a think tank, 
this is not from anybody who has bias, this is from the 
government auditors--we have had 62 incidents since September 
11, 2001 (9/11) and 106 fatalities by the white supremacists, 
anti-government, and other violent extremists. Compare that to 
23 acts of violence by Islamic violent extremists. The 
fatalities are almost equal. And so, one of my goals at this 
hearing today is to get specific responses as to whether or not 
the level of investigation and response matches the level of 
threat as it relates to these two types of terrorists that want 
to do harm to American citizens.
---------------------------------------------------------------------------
    \2\ The document referenced by Senator McCaskill appears in the 
Appendix on page 74.
---------------------------------------------------------------------------
    I am worried that we have--and this Committee is a good 
example. We have had multiple hearings on the threat of Islamic 
State of Iraq and Syria (ISIS) as it relates to homeland 
security. We have had zero hearings about the threat of 
domestic terrorists and the threat they pose in our country and 
our response to it.
    We also face the threats from foreign terrorist 
organizations like ISIS and those inspired by them. We only 
need to look overseas over the past 4 months to see what our 
allies have suffered. The suicide bomber in Manchester, 
England, in June; the pedestrians on the London Bridge in 
August; a van in Barcelona, Spain; and just this month a bucket 
bomb on a London subway. We know these organizations are not 
just targeting Europe.
    We know that, in addition to domestic terrorists, there are 
also foreign terrorists who want to kill Americans and who want 
to, importantly, radicalize Americans here at home to do so.
    That is why we depend on you, the men and women of the DHS, 
the FBI, and the NCTC. We rely on you to identify threats, 
prevent attacks, and keep America safe.
    That is why I am so concerned about some of the budget 
choices made by this Administration. For instance, mass transit 
locations and other ``soft targets'' where large groups of 
people gather have served as prime targets. In addition to 
aviation security, the Transporation Security Administration 
(TSA) helps secure mass transit, passenger rail, freight rail, 
highways, buses, pipelines, and seaports. According to the TSA, 
more than 10 billion passenger trips are taken on mass transit 
systems each year.
    Yet the President's budget plans to cut critical TSA 
programs at a time that we cannot afford to let up when it 
comes to security measures. A large portion of this cut is 
taken from the Visible Intermodal Prevention and Response 
(VIPR) teams. The VIPR teams deploy all across the country to 
provide critical assistance with securing airports, subways, 
and bus terminals. And, by the way, they also deployed to 
Houston to assist with recovery. But, the President's budget 
would cut them by $43 million, reducing VIPR teams from 31 down 
to just 8 teams to cover the entire country.
    The President's budget would also slash other DHS programs 
that provide critical security to our transportation systems. 
In July, DHS announced 29 awards through the Complex 
Coordinated Terrorist Attacks (CCTA) Grant Program, including 
one that would help Kansas City preparedness plans and enhance 
communications systems, and another that would allow St. Louis 
to build an integrated response structure among first 
responders. This is the type of assistance we should be 
providing our cities in the face of threats like London, 
Barcelona, and Manchester. But, the President's budget will 
eliminate all of these grant programs for next year.
    There unfortunately is not enough time to discuss in 7 
minutes or even a single hearing all the threats our country 
faces. We face cyber ransomware attacks. We have Russia trying 
to hack our elections. This month, DHS ordered Agencies to 
remove cybersecurity software from Federal computer systems 
because of its manufacturer's ties to Russian intelligence. We 
have border security issues. We even have potential threats to 
agriculture. Just last month I had a roundtable in Kansas City 
to learn what agro-terrorism could do to the Nation's 
confidence in its food supply.
    So, I am glad you are all here today to talk about what the 
greatest threats are that America faces, what we are doing 
about them, and, most importantly, what we can do to help you 
in your most important work.
    Thank you very much.
    Chairman Johnson. Thank you, Senator McCaskill.
    I would ask consent that my written opening statement be 
entered in the record.\1\
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Johnson appears in the 
Appendix on page 45.
---------------------------------------------------------------------------
    It is the tradition of this Committee to swear in 
witnesses, so if you will all stand and raise your right hand. 
Do you swear that the testimony you will give before this 
Committee will be the truth, the whole truth, and nothing but 
the truth, so help you, God?
    Ms. Duke. I do.
    Mr. Wray. I do.
    Mr. Rasmussen. I do.
    Chairman Johnson. Please be seated.
    Our first witness is the Honorable Elaine Duke. Elaine Duke 
is the Acting Secretary of the Department of Homeland Security. 
She became the Acting Secretary on July 31st. She has served as 
Deputy Secretary since April. Her previous decades of Federal 
service include 2 years as the Department's Under Secretary for 
Management. Acting Secretary Duke.

TESTIMONY OF THE HONORABLE ELAINE C. DUKE,\2\ ACTING SECRETARY, 
              U.S. DEPARTMENT OF HOMELAND SECURITY

    Ms. Duke. Good morning, Chairman Johnson, Ranking Member 
Mr. Chairman, and distinguished Members of the Committee. It is 
my honor to testify this morning on behalf of the men and women 
of DHS who shield our Nation from threats of terror each and 
every single day.
---------------------------------------------------------------------------
    \2\ The prepared statement of Ms. Duke appears in the Appendix on 
page 48.
---------------------------------------------------------------------------
    Last night, we learned of a U.S. Customs and Border 
Protection (CBP) agent that was shot and is critically ill in 
Jacksonville, Florida, and each week I send out condolence 
letters for law enforcement officers, and it is on behalf of 
them that I testify today and came back to service.
    In recent weeks, Hurricanes Harvey, Irma, Jose, and Maria 
have placed a spotlight on natural disasters. With FEMA's 
leadership, our Department and the whole Federal Government 
have come together to respond to these crises, and I am 
impressed with the professionalism I have witnessed.
    But the challenges in places like Puerto Rico are evidence 
that there is a long road ahead. To those that have been caught 
up in the disasters, let me say this: I promise to do 
everything in my power to bring relief, and we will stand with 
you side by side in the weeks, months, and years to come.
    But natural disasters are not the only threats we face as a 
Nation. Right now, the terror threat to our country equals and 
in many ways exceeds that in the period around 9/11. We are 
seeing a surge in terrorist activity because the fundamentals 
of terrorism have changed. Our enemies are crowdsourcing their 
violence online, promoting a do-it-yourself approach that 
involves using any weapons their followers can get their hands 
on easily.
    The primary international terror threat facing our country 
is from global jihadist groups. However, the Department is also 
focused on the threat of domestic terrorism. Ideologically 
motivated extremists here in the United States are a threat to 
our Nation, our people, and our values. I condemn this hate and 
violence, and my Department is focused on countering it. DHS 
will not stand on the sidelines as these threats spread, and we 
will not allow pervasive terrorism to become the new normal.
    We are tackling the dangers ahead in two ways:
    First, we are rethinking homeland security for a new age. 
There is no longer a home game and an away game. The line is 
blurred, and the threats are connected across borders. That is 
why DHS is moving toward a more integrated approach, bringing 
together intelligence, operations, interagency engagement, and 
international action like never before.
    Second, we are raising the baseline of our security posture 
across the board. We are looking at everything from traveler 
screening to information sharing. Higher threat levels mean we 
need higher standards.
    For example, we are now requiring all foreign governments 
to share critical data with us on terrorists and criminals and 
to help us confidently identify their nationals. We must know 
who is coming into our country and make sure that they do not 
pose a threat. That is why I recommended and the President 
approved tough but tailored restrictions against countries who 
do not cooperate with us on immigration screening and vetting. 
This will protect America and hold foreign governments 
accountable.
    Similarly, we are elevating aviation security standards. 
Our ongoing Global Aviation Security Plan, which we began this 
summer, is making U.S.-bound flights more secure, and it is 
raising the baseline of aviation security worldwide.
    We are also making historic moves to keep dangerous 
individuals and goods from entering America illegally. That 
includes building a wall on the Southwest border and cracking 
down on transnational criminal organizations (TCO) that bring 
drugs, violence, and other threats across our borders.
    Within our borders, we are rededicating ourselves to 
terrorism prevention to keep extremists from radicalizing our 
people. As part of this effort, we are prioritizing education 
and community awareness. We are redoubling our efforts to stop 
terrorist recruitment, and we are emphasizing the importance of 
early warning to make sure communities report suspicious 
activity before it is too late.
    Americans are also alarmed by the spike in cyber attacks. 
Our adversaries continue to develop advanced capabilities 
online. They seek to undermine our critical infrastructure, 
target our livelihoods and our secrets, and threaten our 
democracy.
    On behalf of the entire Department, I appreciate the 
critical role this Committee plays in helping us execute our 
mission. I also respectfully ask the Committee to focus on 
reauthorizing our Department as quickly as possible.
    Thank you for letting me appear today, and I look forward 
to your questions.
    Chairman Johnson. Thank you, Secretary Duke.
    Our next witness is Christopher Wray. Christopher Wray is 
the Director of the Federal Bureau of Investigation. On August 
2, 2017, Mr. Wray was sworn in as the eighth FBI Director. He 
previously served as Assistant Attorney General (AG) at the 
Department of Justice (DOJ) in charge of the Criminal Division. 
Director Wray.

 TESTIMONY OF THE HONORABLE CHRISTOPHER A. WRAY,\1\ DIRECTOR, 
  FEDERAL BUREAU OF INVESTIGATION, U.S. DEPARTMENT OF JUSTICE

    Mr. Wray. Thank you, Chairman Johnson, Ranking Member 
McCaskill, and Members of the Committee, for the opportunity to 
talk to you today about the threats here in the homeland and 
the tremendous work being done by the people at the FBI to 
confront those challenges.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Wray appears in the Appendix on 
page 59.
---------------------------------------------------------------------------
    From my earlier years in law enforcement and national 
security, I already knew how outstanding the men and women of 
the Bureau are, but to see it, I must say, over the last few 
weeks from this position makes me feel even more honored, if 
that is possible, to be their Director. They are mission-
focused; they are passionate; they are determined to be the 
very best at protecting the American people and upholding the 
rule of law.
    Having been away from government for a number of years, 
some of the changes that I have now seen in the first few weeks 
upon getting back have struck me in particular: the evolution 
of the threats, the expertise developed, and the capabilities 
that have been built. Changes in technology have dramatically 
transformed the nature of the threats we face and challenged 
our ability to confront those threats.
    In the terrorism arena, my prior experience was primarily 
with large structured terrorist organizations like al-Qaeda, 
and to be clear, we still very much confront threats from large 
structured organizations like al-Qaeda planning large-scale, 
sophisticated attacks over long periods of time. But now added 
to that list, we also face groups like Islamic State of Iraq 
and the Levant (ISIL) who use social media to recruit and 
spread their propaganda and to inspire people to take to the 
streets with crude but effective weapons, like hatchets and car 
bombs. These are smaller in scale but greater in volume, and 
these organizations often move from plotting to action in a 
very short period of time, with very little planning and using 
low-tech and widely available attack methods.
    These terrorists' use of social media and encryption 
technology has made it harder to find the messages of hate and 
destruction they are spreading and harder to pinpoint who these 
messages are gaining traction with here in the homeland.
    The same can be said of domestic extremist movements that 
collectively pose a steady threat of violence and economic harm 
to the United States, in that instance primarily through lone 
offenders.
    In the cyber arena, the threats are not only increasing in 
scope and scale; they are also becoming increasingly difficult 
to investigate. Cyber criminals have increased the 
sophistication of their schemes, which are now harder to detect 
and more resilient. What was once a comparatively minor threat, 
somebody hacking for fun and bragging rights and trying to 
prove a point just that he could do it, has now turned into 
full-blown nation-state manipulation and a multi-million-dollar 
business.
    And, in the counterintelligence arena, foreign governments 
pose a rising threat to the United States, and that threat also 
is more complex and more varied than it has been at any time in 
the FBI's history. Historically, as the Committee may know, 
counterintelligence focused on protecting U.S. Government 
secrets from foreign intelligence services. But today, in 
addition, we face threats from nation-states targeting not just 
our national security secrets but our ideas and our innovation. 
And, we now see threats not just from traditional intelligence 
officers but from less traditional spies posing as business 
people or students or scientists.
    All those threats are amplified by the growing challenge 
that we in the law enforcement community refer to as ``going 
dark.'' It affects the spectrum of our work. The exploitation 
of encrypted platforms presents serious challenges to law 
enforcement's ability to identify, investigate, and disrupt 
threats, whether it is--and I want to add to that that, 
obviously, we all understand that whether it is instance 
messages, texts, old-fashioned letters, citizens have the right 
to communicate with each other without unauthorized government 
surveillance, and the free flow of information is critical to 
democracy.
    But the benefits of our increasingly digital lives have 
been accompanied by new dangers, and we have been forced to 
wrestle with how criminals and terrorists might use advances in 
technology to their advantage. Even with unquestionably lawful 
authority, the reality is we are all too often flying blind, 
and we need to work together to find thoughtful but quick and 
effective solutions.
    The news is not all bad, not by a long shot. There are 
great strides being made. Intelligence is being far better 
integrated into our mission. The quality of our partnerships, 
both across Agencies, State and local, foreign, are at a whole 
new level. But while great progress has been made, we need to 
keep improving. I think the changes in technology are one of 
the primary concerns that we have, and I look forward to 
answering the Committee's questions.
    Chairman Johnson. Thank you, Director.
    Our final witness is Nicholas Rasmussen. Mr. Rasmussen is 
the Director of the National Counterterrorism Center. On 
December 18, 2014, Mr. Rasmussen was sworn in as the fifth 
Director of the NCTC. He previously served as the NCTC's Deputy 
Director since June 2012. Director Rasmussen.

TESTIMONY OF THE HONORABLE NICHOLAS J. RASMUSSEN,\1\ DIRECTOR, 
  NATIONAL COUNTERTERRORISM CENTER, OFFICE OF THE DIRECTOR OF 
                     NATIONAL INTELLIGENCE

    Mr. Rasmussen. Good morning, Mr. Chairman, Ranking Member 
McCaskill, and Members of the Committee, and I am pleased to be 
here with my colleagues and close partners Secretary Duke and 
Director Wray.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Rasmussen appears in the Appendix 
on page 67.
---------------------------------------------------------------------------
    As we passed the 16-year mark since 9/11 earlier this 
month, the array of terrorist actors we are confronting around 
the globe is broader, wider, and deeper than it has been at any 
time since that day. And, as we sit here today, the discipline 
of terrorism prevention I would argue is evolving and changing 
beneath our feet every day as well and requires that we respond 
with extraordinary agility.
    I will just briefly discuss two areas to complement what my 
colleagues have already said.
    First, I will quickly share what we have seen by way of 
changes or shift in priority in the terrorism landscape since I 
was sitting before the Committee a year ago.
    Second, I will say just a few words about areas where we 
can do a better job tackling the threat of those who are 
mobilized to extremist violence here at home.
    So let us begin with what has changed or is new since this 
time last year. We see those developments in three principal 
areas: the coalition's success in shrinking the territory that 
ISIS controls in Iraq and Syria as compared to a year ago; the 
significant uptick in attacks inspired by ISIS that we have 
seen against Western interests across the globe in the last 
year as compared to the number of attacks directed by the ISIS 
group from its headquarters in Iraq and Syria; and, finally, 
the third new threat development I would point to for this year 
is the resurgence of aviation threats, reaching a level of 
concern that we in the intelligence community (IC) have not 
faced since al-Qaeda in the Arabian Peninsula's printer package 
plot in 2010.
    So, to start with, ISIS losses on the battlefield. Since I 
spoke with this Committee last year, ISIS has lost a number of 
senior leaders, been expelled from key cities in Iraq and 
Syria, and suffered other significant defeats in the heart of 
its so-called caliphate. As ISIS copes with this loss of 
territory, the group will look to preserve its capabilities by 
operating as a covert terrorist organization and insurgency. In 
some ways, ISIS is reverting to its roots with tactics we saw 
in the period 2004 to 2008, when it operated as an insurgency 
called al-Qaeda in Iraq.
    However, these territorial losses have unfortunately not 
translated into a corresponding reduction in the group's 
ability to inspire attacks. While progress has been made in 
shrinking the size of the territory that ISIS controls, this 
has not diminished their ability to inspire attacks far beyond 
the conflict zone. Over the last year, those attacks have taken 
place in places like the United Kingdom (U.K.) and other 
countries in Europe. This highlights the diffuse nature of the 
global threat. And, the number of arrests and disruptions we 
have seen around the globe, while that is a testament to really 
effective and strong law enforcement and intelligence work, it 
also tells us that ISIS' ability to reach globally is still 
largely intact.
    This uptick in inspired attacks is in contrast to the 
pattern of Western attacks directed and enabled by the group's 
headquarters in Syria that we saw in 2015 and 2016. All of this 
underscores our belief that there is not, in fact, a direct 
link between ISIS' battlefield position in Iraq and Syria and 
the group's capacity to inspire external attacks. And, it makes 
clear that battlefield losses alone are insufficient to 
mitigate the threat that we face from ISIS.
    Winning on the battlefield in places like Mosul and Raqqa 
is a necessary but insufficient step in the process of 
eliminating the ISIS threat to our interests. As a result, we 
need to be patient in terms of expecting return on the 
investment we are making with our campaign against ISIS. It is 
simply going to take longer than we would like to translate 
victory on the battlefield into genuine threat reduction.
    It is also worth me saying, as focused as we are in 
addressing ISIS, al-Qaeda has never stopped being a primary 
counterterrorism priority for the counter terrorism community 
here in the United States. The various al-Qaeda groups have 
also managed to sustain recruitment, maintain relationships, 
and derive sufficient resources to enable their operations. 
This is a strikingly resilient organization, and we are well 
aware of that.
    I will touch quickly now on the third development that has 
stood out over the last year: the threat to civil aviation. As 
you are well aware, terrorists see attacking aviation as a way 
to garner global media attention and inflict serious economic 
harm. Aviation has taken center stage over the last year as 
evidenced by the Australian authorities' disruption of a plot 
by terrorists to bring explosives aboard an aircraft. Both 
ISIS-and al-Qaeda-aligned groups have demonstrated a continued 
capability to conduct aviation attacks. All of these attacks, 
both ones that succeeded and ones that failed, demonstrate 
several things.
    First, they show the persistent focus on terrorists on 
targets of Western aviation.
    Second, it shows that terrorists are aware of security 
procedures. They watch what we do, and they try to learn from 
it.
    And, third, it suggests that the bad guys have an ability 
to adapt their tactics in an attempt to defeat the airport 
security measures that we engage in.
    It is for these reasons that aviation-related threats have 
long been and will remain at or near the top of the list of 
things we worry about.
    Why don't I stop there, Mr. Chairman? I have some words to 
say about terrorism prevention and our efforts to deal with 
homegrown extremism here in the United States, but I would 
rather reserve that for questions. I will stop there, Mr. 
Chairman.
    Chairman Johnson. OK. Thank you all for your testimony.
    I appreciate the attendance here by fellow members. It has 
been requested that we have two rounds, which I am happy to 
accommodate, but we will limit questioning to 5 minutes. And, I 
would ask the witnesses as well, there is a pretty tried and 
true technique of asking a question with, 2 seconds remaining. 
Respond, but respond quickly. We need to keep this thing going 
to respect everybody's time.
    Oftentimes in these situations I will defer questioning, 
but in light of the events in Puerto Rico, I would like to just 
give Secretary Duke the opportunity to just kind of describe, 
first of all, the challenge, how FEMA and the Department have 
risen to the challenge in Houston, Florida, and what we face in 
Puerto Rico.
    Ms. Duke. Puerto Rico has some unique challenges. The 
capacity of the Puerto Rican government is severely diminished, 
both because of Hurricane Irma, their prior existing financial 
situation, and the devastation wreaked by the direct hit of 
Maria. Maria was one mile shy of being a Category 5 hurricane, 
so the devastation is complete.
    So, what we are doing is we are standing strong with the 
Governor. We are attacking the areas of the diminished 
capacity. So, there is food and water on the island. There is 
gasoline on the island. What we are focused on today, now that 
search and rescue is very much complete, is distribution 
channels. We have asked the Defense Logistics Agency to augment 
the local National Guard and distribution channels so we can 
get goods and gasoline out more quickly. That is what we are 
focused on today.
    The second thing we are focused on is communications. Right 
now, we are primarily dependent on satellite phones, which is 
ineffective, but it helps with emergencies, but it is not 
helping people find their loved ones. So, we are increasing the 
number of satellite phones. And, we have AT&T on the island 
now. We are supporting them with getting their people and 
equipment there. They have agreed that they will restore any 
tower, even if it is not their cell phone tower, and they are 
providing services to any person of Puerto Rico, regardless of 
their carrier. So, we are working on that cell phone coverage.
    The electrical grid is more of a challenge. We are doing 
the assessment. It is completely devastated in terms of point 
of delivery, and the distribution system and the whole power 
system from start to finish is virtually gone. So, that is 
going to be a long-term recovery. We are working with the 
Department of Energy, private industry, and working on that. 
So, that is where we are there.
    The Governor is still standing strong. We have Department 
of Defense (DOD) troops supporting the National Guard, the 
National Guard providing security, and we are in a full-court 
press.
    Additionally, we have Texas and Florida that were 
predominantly hit by the first two hurricanes. In Texas, last 
week we were able to sign a housing plan that really is going 
to bring people back into their communities quickly. It is a 
type of housing recovery program that has never been done 
before, and we are very proud that Texas is with us on that and 
wants to lead their housing recovery.
    In Florida, the electrical grid is restored predominantly. 
Key West still has challenges. The predominance of people on 
Key West had mobile homes destroyed, and that is going to be a 
challenge of how we recover that housing situation. Do we just 
restore with new mobile homes, or do we try to provide 
something more resilient for those Floridians as they recover?
    So, that is a summary. I am happy to answer your questions 
as we go forward.
    Chairman Johnson. I have two other questions to clarify. 
First of all, in my memory, I cannot remember three major 
disasters like that just back to back Houston, Florida, and now 
Puerto Rico. Can you give us some sense of the number of 
Federal employees, including FEMA, that are kind of on station 
at these three zones? And then, also just talk about the 
significance of what President Trump has done in terms of 100 
percent funding in Puerto Rico and why that was necessary.
    Ms. Duke. Right. We have over 10,000 Federal employees 
onsite right now. One of the things that President Trump has 
done for both Irma and Maria is--and Harvey, is declared 
declarations early. That has allowed our response to get ahead 
of the disaster. That has been hugely helpful.
    Additionally, in Puerto Rico, he yesterday gave 100 percent 
cost share, which means the Commonwealth of Puerto Rico does 
not have to contribute in the first 180 days. That has been 
hugely important in us getting industry there. The electrical 
industry and others did not want to go there unless they knew 
they were going to get paid, and this has allowed us to 
mobilize industry to move forward, and that has been helpful.
    Additionally, I cannot stop answering that question without 
thanking the other Cabinet members. The Cabinet has really come 
together. We have the Small Business Administration (SBA), 
Department of Health and Human Services (HHS), Department of 
Energy (DOE), Department of Veterans Affairs (VA), Department 
of Labor (DOL). Everybody has come together with their assets 
in support of DHS and FEMA and the Governors in their response.
    Chairman Johnson. Thank you, Secretary. Senator McCaskill.
    Senator McCaskill. Well, it is good to hear that brief. I 
will look forward to the detailed brief, and I know some of my 
colleagues are also very interested in the specifics on the 
ground in Puerto Rico. It seems to me we should have known 100-
percent match before the hurricane even hit. Clearly, from the 
financial status of the island, they were going to be in no 
position to make the match. So, it is unfortunate that we had 
to wait this long to make that identification of the 100-
percent match.
    I want to talk about what I mentioned in my opening 
statement. I do not think most Americans realize that the 
number of incidents by white supremacist, militant, anti-
government organizations are almost triple the number of 
attacks of those who identify with a jihadist movement 
internationally in this country.
    Can you, Director Wray, talk about how many dedicated 
agents do you have full-time to investigating international 
terrorism versus the type of terrorism that has been 
responsible for almost as many deaths as the international 
terrorism, that is, the white supremacist, anti-government, 
militant right in this country?
    Mr. Wray. Senator, first let me say I agree with you that 
the domestic terrorism threat is a very serious one indeed and 
something that we spend a lot of our time focused on. I do not 
have, sitting here right now, the allocation of agents, that 
number. What I can tell you on this particular subject is that 
we have about 1,000 open domestic terrorism investigations as 
we speak, and that over the past 11 to 12 months I think we 
have had 176 arrests of domestic terrorism subjects during that 
period of time. And, I have now been starting just in my first 
few weeks on the job getting out to some of the field offices, 
and there are significant numbers of agents who are working 
very hard on that subject. So, I can assure you that it is a 
top priority for us.
    Senator McCaskill. I would really appreciate if you would 
provide to the Committee for the record some kind of breakdown 
of the resources that are being allocated in these various 
areas. I think that the threat is one that--if you asked most 
Americans, they would assume that the threat from ISIS 
influence is much greater, and in reality, the facts do not 
support that. And so, I would like to get a better sense of the 
balance of resources in this area, if you would.
    Let us talk about counterterrorism budget cuts. The 
President's budget calls for elimination of almost half a 
billion dollars in cuts for counterterrorism, while the same 
budget says that we need to build a wall that even Border 
Patrol agents say is not their top priority for border 
security.
    Can you talk about the substantial cuts and how that would 
impact the current counterterrorism efforts and security in a 
way that is possible for you to talk about, either Director 
Rasmussen or any of the three of you?
    Mr. Rasmussen. It is kind of difficult for me to comment 
because the intelligence portion of the budget is, I do not 
think, exactly what you have got your fingers on with your 
question you are asking; and in terms of the resources I have 
available to me at the National Counterterrorism Center, I am 
comfortable that we have the resources necessary to carry out 
the various missions we have, particularly some of the extra 
additional work we are doing in the areas of screening and 
vetting to support Secretary Duke and her team at DHS.
    We are a very tiny slice, and so I do not want to--I am 
not----
    Senator McCaskill. Right.
    Mr. Rasmussen [continuing]. In any way evading your 
question. I am just saying that the resources I have available 
have not been significantly reduced, and I am in a position to 
carry out my missions effectively.
    Senator McCaskill. Secretary Duke, what about the--I mean, 
I think everybody would agree the VIPR teams have been very 
effective as they have worked around the country. Reducing the 
VIPR teams down to eight, are you going to try to advocate to 
reverse that as we move forward? I am hoping the appropriators 
will.
    Ms. Duke. We have to do a risk-based approach, and we value 
the VIPR teams. They have had a significant mission, and we 
funded those that we could within the constraints of balancing 
the risks with the demonstrated and measurable value of the 
teams.
    Senator McCaskill. Thank you, Mr. Chairman. Look at that. I 
finished before 5 minutes.
    Chairman Johnson. I hope everybody follows the Ranking 
Member's----
    Senator McCaskill. It is a bad example I set.
    Chairman Johnson [continuing]. Excellent example. Senator 
Portman.

              OPENING STATEMENT OF SENATOR PORTMAN

    Senator Portman. Thank you, Mr. Chairman. And, welcome to 
all three witnesses. Ms. Duke, you are here for the first time 
as Acting Secretary, and, Director Wray, you are here for the 
first time before the Committee. We are glad that you are still 
here, Nick. We need you.
    Look, this has been just a horrible hurricane season, and 
our hearts go out to the victims in the wake of the 
devastation. As you said, three storms, that probably makes 
this the worst hurricane season that we have experienced, and 
our thanks go out to the first responders and to the 
volunteers, some from my State, and all the States represented 
here who have lent a hand to their fellow citizens. But our 
citizens today in the Virgin Islands and in Puerto Rico I think 
are in a particularly difficult situation, and I understand 
that in Texas and Florida, we have also got a tough situation. 
But we have the capability to be able to handle that better at 
the State level.
    You talked a little about what you are starting to do, 
Secretary Duke, and I guess my question really is about what 
more can be done, one, by DOD, because as I understand it--and 
you mentioned distribution. Yes, there is gas on the island. 
Yes, there is food and water. But it is not getting out to the 
locations that need it or to many of the locations that need 
it. And, it seems to me that infrastructure is going to have to 
be provided by the Federal Government.
    So, what can you tell us about DOD cooperation in that? 
Because it seems like you are not going to just need FEMA 
folks; you are going to actually need bodies and vehicles and 
other infrastructure, communications infrastructure. What is 
DOD doing? What could they do more of? And then, finally, what 
more can we do? I know you are going to come to us for 
additional appropriations later this fall, but what could this 
Congress be doing right now?
    Ms. Duke. So, DOD is providing tremendous support. We have 
about 16 ships in the area between DOD and Coast Guard, with 
additional on the way, including Mercy Ship, a hospital ship.
    One of the things DOD is doing that is critically important 
is assessing the ports and the airports. If we can get the 
ports and the airports to full operation, that is going to be 
huge. We were able to reactivate the closed air force base, 
Roosevelt Roads, so now we are flying our supplies through that 
airport and have been able to open Puerto Rico to commercial 
flights to allow persons to come back to the United States that 
want to come back.
    So, I think what DOD is doing is helping us get the 
supplies there, but also helping us open the access roads. They 
also are leading the debris removal, which is huge. We still 
have areas that we cannot access by roads.
    We did send more troops down yesterday, including a general 
that will be in charge of coordinating on the ground. So, we do 
have a general onsite now that I think is going to help speed 
things around and put decisionmaking on the ground. I think 
that was a big step forward.
    In terms of Congress, there is funding. We did ask 
yesterday in a congressional call to hold off congressional 
visits because of the limited airspace, space in between 
flights, and we thank you all for doing that. I know many of 
you want to get there and see it, and we thank you for 
postponing until at least next week congressional visits so 
that we can use every minute of airspace and time for those 
that have survived this terrible event.
    Senator Portman. Well, thank you. It is an urgent 
situation. I think a different response is needed, and I am 
glad to hear that our military resources are being used because 
I think it is required.
    I would ask you to change subjects for a second, and I want 
to talk about fentanyl, carfentanil, and really biochem issues. 
As you know, we have an opioid crisis in this country, and, in 
fact, more people are dying every day in my State of Ohio, your 
home State, and all of our States than last year. It is not 
getting better; it is getting worse. More deaths from overdoses 
from heroin, synthetic heroins like fentanyl and carfentanil, 
than car accidents. It is the number one cause of death now in 
my State and in our country.
    By the way, 58 percent of the deaths in Ohio over the last 
year came from fentanyl, not from heroin. And, this fentanyl is 
coming into our country by the U.S. Mail system, primarily from 
China. So, this is a threat that is an external threat coming 
in, and I am frustrated because we cannot get our Postal 
Service to provide law enforcement, including your people at 
Customs and Border Protection, the information they need to be 
able to identify these packages and stop this poison from 
coming into our communities.
    I know you are aware of the issue. Can you tell us what 
progress you are making to be able to stop this? And, do you 
support our legislation, the STOP Act? There are a number of 
Members of this Committee who are cosponsors of that 
legislation. It is very simple. It just says that the post 
office has to provide advance information to law enforcement to 
be able to identify these packages and stop this threat.
    Ms. Duke. Absolutely, and I think that the work of this 
Committee has helped. I am meeting with the Postmaster General 
next week. We have gotten visibility into a certain percentage 
of packages, but it absolutely has to increase.
    Additionally, we are seeing the routing change, so as we 
address China, the routing is changing to some stops. So, we 
are definitely focused on that, and I feel confident the 
Postmaster General is at the table now.
    Senator Portman. Well, we would like your support on this 
legislation, because it needs a change in law to require the 
post office to do what all the other private carriers have to 
do. And, the traffickers know, as was said by Mr. Rasmussen 
earlier, they know how to take advantage of our weaknesses, and 
this is a weakness right now in our current system.
    And, by the way, this product is also being weaponized, so 
carfentanil in particular, Director Wray, I hope you all will 
focus on that as well. And, I have a concern about terrorist 
groups and State actors using this as a biological weapon, a 
chemical weapon as well.
    Thank you, Mr. Chairman.
    Chairman Johnson. Senator Lankford.

             OPENING STATEMENT OF SENATOR LANKFORD

    Senator Lankford. Thank you, Mr. Chairman. I thank all of 
you for being here and the testimony that you are bringing.
    Ms. Duke, thank you for stepping up. You came to be able to 
serve with General Kelly, and then he ran off to a different 
job, so you had to step up to be able to take this. Thank you 
for stepping up and being able to take that. I know we have a 
visit scheduled in my office, I believe, to be able to go 
through several of the details. I will skip through some of 
those until we get to it.
    Let me ask you some specific questions, first about Puerto 
Rico. A waiver was requested, a Jones Act waiver, for Puerto 
Rico. That was denied. That waiver was given to Houston, it was 
given to Florida. Obviously, the Virgin Islands, they are 
waived from the Jones Act entirely all the time, so they 
constantly have ships coming back and forth. Puerto Rico in 
good times thinks that the Jones Act costs them about $1.5 
billion in economic activity a year, but they especially need 
it now in just getting vessels in.
    Can you help me understand why and where the conversation 
is on the Jones Act for Puerto Rico?
    Ms. Duke. First of all, we do not know of fuel shortages on 
the island of Puerto Rico. The challenge for us today is 
getting it distributed.
    In terms of the Jones Act waiver, we have researched this. 
I read it in the news clips this morning. We have no known 
Jones Act waiver request. We did receive a congressional letter 
today. We are double-checking to make sure that is not true. If 
there are fuel shortages we are looking at Jones Act. Like you 
said, we will use it appropriately. There are two issues with 
Puerto Rico. One is the potential shortage of carriers, U.S.-
flagged carriers. The second is tariffs and other things that 
make the fuel cost high in Puerto Rico, and that is what we are 
hearing, too, is that people are suffering from the tariffs.
    Senator Lankford. I would say if we could proactively 
engage in that, it would help them. Obviously, it is a week to 
be able to get a vessel to them. So, the longer it takes to be 
able to get that waiver done, then vessels cannot even start 
getting there that are non-U.S.-flagged vessels to be able to 
get to it. So, that would be very helpful.
    Another interesting point that we can talk about later on 
is dealing with FEMA and the decision about nonprofits. 
Congress years ago said that nonprofits were included in 
disaster relief aid. Previous administrations have defined 
nonprofits as excluding churches. I am still trying to get a 
definition for that because often the churches are the ones 
that are the community location where food and everything is 
distributed from there, but then they cannot also get disaster 
relief, but the museum or the library or whatever else around 
them can. And so, that is one I think the administration 
already has the authority to make the decision. Congress has 
already spoken to that. Just previous administrations have 
defined nonprofits as everything but a church, but a church is 
also nonprofit. So, whether you are synagogue, a mosque, or a 
church, I think it should not apply on that. Again, we can talk 
about that later on some other things.
    I do want to talk to you a little bit about election 
security as well and some of the things that are going on as we 
deal with countering violent extremism (CVE) and what is 
happening and destabilizing us. We watched even this weekend 
the Russians and their troll farms and their Internet folks 
start hashtagging out ``Take a knee'' and also hashtagging out 
``Boycott National Football League (NFL).'' They were taking 
both side of the argument this past weekend and pushing them 
out from their troll farms as much as they could to try to just 
raise the noise level in America and to make a big issue seem 
like an even bigger issue as they are trying to push 
divisiveness in the country. We have continued to be able to 
see that. We will see that again in our election time.
    My question for you is: You have the responsibility to 
oversee elections nationwide and to be able to work with our 
States that organize all their elections within the State. Does 
DHS have the resources it needs to do onsite assessments for 
all the States that request it between now and the 2018 
elections?
    Ms. Duke. We do have the resources to do it. Not all States 
have requested it, and I think there is still an issue with 
some States on whether they want that Federal involvement. But 
we do have the resources.
    Senator Lankford. OK. We will follow up on that in greater 
detail in another conversation.
    I have visited with DHS folks on the design of the border 
wall and trying to work through the border security for the 
Southern border. Several Members of this Committee were also 
involved in some of those conversations. We are still waiting 
on details, descriptions, design, cost. The cost per mile of 
the border wall done 10 years ago was about $3.5 million. The 
initial request was about $20 million per mile. So, we are 
waiting for not only why that dramatic increase in cost, what 
the final design will look like, but also the long-term view of 
this, not to just look at the 77 miles that is requested 
currently, but where do we go, in what order, and how do we do 
it, and some simple things that can be cheaper. For instance, 
getting rid of the very actively growing cane that is on the 
river banks where individuals hide drugs and be able to move 
products into the United States illegally, that cane 
eradication would be exceptionally important as well.
    So, any comments you can make about the future of the wall 
and where we are going?
    Ms. Duke. Sure. I am looking at the plan next week, and we 
will have it to Congress shortly after. And, as I committed in 
my confirmation hearing, it will not--the Southern border 
strategy does not include just the wall. It includes 
infrastructure, technology, and other co-securing mechanisms.
    Senator Lankford. Thank you. We will follow up.

             OPENING STATEMENT OF SENATOR HEITKAMP

    Chairman Johnson. Senator Heitkamp.
    Senator Heitkamp. Just on follow up to that, you are 
working on both the Northern border and the Southern border 
strategy. What is the timeline on those, Secretary?
    Ms. Duke. We will have the Northern border strategy by the 
end of the calendar year. We will have the Southern border 
strategy within the next month.
    Senator Heitkamp. That is critically important as we go 
through decisionmaking, and as we look at cane eradication, 
another eradication, mesquite, clearly in Arizona and in--it is 
an invasive species there, easy to hide, needs to be eradicated 
so that we have a better chance of catching border crossers 
that first mile in.
    So, I want to talk about cybersecurity, and I do not have a 
lot of time, so I am going to do this quickly. Two questions. 
How do you grade our current vulnerability in this country, A 
being impenetrable, F being we are in big trouble? And, how do 
you grade--this is for all of you. How do you grade our current 
collaboration and coordination across Executive Branch 
agencies, including DOD? And, we will start with you, 
Secretary.
    Ms. Duke. Coordination across Federal Agencies has gotten 
very high. I would probably give it a B because I never think 
we are done. And, we know the threat is significant.
    In terms of grades, it would depend on the critical 
infrastructure sector. Right now we are focused on energy and 
critical infrastructure and the attacks on that. That is 
probably our highest threat right now. So because of its 
importance and the focus on that, I would give that the lowest 
grade.
    Senator Heitkamp. OK. Director.
    Mr. Wray. Senator, I would agree with Secretary Duke that 
on the cooperation side I think there has been dramatic 
advances and dramatic progress in the wake of Presidential 
Policy Directive (PPD-41) and a number of other things, much 
better coordination. So, like Secretary Duke I tend to be 
dissatisfied with our efforts, so, B, B-minus maybe on that 
front.
    On the threats, I am still trying to get my arms around a 
lot of them just a few weeks into the job. So, I guess I would 
call that incomplete.
    Senator Heitkamp. OK.
    Mr. Rasmussen. Nothing really to add, Senator.
    Senator Heitkamp. I think, we always hear there is 
coordination, and then an event happens, and it seems like no 
one really seems to know what--the right hand does not know 
what the left hand is doing, and so I would be very careful to 
give too high marks to coordination, because I am not sure that 
we in the Congress understand who is doing what and how it is 
being coordinated and what we need to do. I mean, we have these 
one-offs, whether it is election challenges, and then we look 
at what happened at the Securities and Exchange Commission 
(SEC), what has happened at, obviously the Equifax penetration. 
And, these have all created incredible challenges. And, one of 
the things we know about cyber is that it is critical that we 
engage in a dialogue with the American public about 
cybersecurity and cyber hygiene.
    And so, which agency is taking that on to really begin that 
process? Like you have, ``See something, say something.'' Who 
is doing the actual education of the American public on how 
they can be part of a cybersecurity network?
    Ms. Duke. That is our responsibility at Homeland Security. 
We have started it. We are working on trying to resensitize 
Americans to that need. There is much more to do.
    Senator Heitkamp. And, I think we are woefully short. I 
think, you ask anyone who has been that person who has been 
trying to train their kids on how they can protect themselves. 
It is incredibly vulnerable, because it is as strong as the 
weakest link. And so, I am deeply concerned that we do not 
really have a handle on what we are doing in cybersecurity, and 
that at the end of the day we will spend all of our time and 
our resources looking at all these other threats and completely 
miss one of the most serious threats that could be pursuing 
this country.
    Director Wray, obviously very concerned about what is 
happening in Indian country. Pretty hard on your predecessor in 
terms of the role that the FBI plays in reservations in my 
State. Missing women across the board. I know you and I had a 
discussion in the back room. You are working on it. I just want 
to encourage you to personally, in spite of everything else 
that is going on, personally engage, because you are the only 
cop on the beat for many of my communities who are suffering 
from record amounts of drug addiction and drug abuse, people 
who are suffering violent crime at much higher rates, and now a 
continuation of maybe third-party or third-country involvement 
from law enforcement. So, please, pay attention to this.
    Mr. Wray. Just a quick response?
    Chairman Johnson. Sure.
    Mr. Wray. Senator, I have not forgotten our conversation 
when we met a few weeks ago, and it is something that I have 
specifically raised with my leadership team. We do have the 
Safe Trails Task Forces that we are committed to, but I am well 
aware that in many ways we are the only game in town in that 
space, and so I am looking forward to learning more about how 
we can be more effective.
    Senator Heitkamp. Thank you.
    Chairman Johnson. Senator Hassan.

              OPENING STATEMENT OF SENATOR HASSAN

    Senator Hassan. Thank you, Mr. Chairman and Ranking Member 
McCaskill. I do have several questions today regarding 
terrorist threats to our Nation that I would like to discuss 
with the witnesses. But, I also would like to address the 
crisis in Puerto Rico and our fellow citizens' pleas for 
Federal resources.
    As a former Governor, I know how important those resources 
are, and it is why I am very concerned to hear from my friend, 
former Governor of Puerto Rico, Alejandro Garcia Padilla, that 
relief efforts to this point have failed to make its way to 
those most in need. He and I served together as Governors until 
the end of 2016, and I know him to be a very steady hand amid 
the challenges that his island faces. So, that is why the email 
I got from him last night is so concerning, and I want to read 
an excerpt of it and would ask unanimous consent (UC) for the 
full email to be entered into the record.\1\
---------------------------------------------------------------------------
    \1\ The email submitted by Senator Hassan appears in the Appendix 
on page 160.
---------------------------------------------------------------------------
    Chairman Johnson. Without objection.
    Senator Hassan. Thank you.
    Here is what he says: ``The situation is critical. There is 
no electricity anywhere on the island, and only 40 percent of 
customers have running water. Hospitals are on the verge of 
collapse, and many have had to transfer all their patients to 
other overstrained facilities because they have run out of gas 
or diesel for their generators. Patients are dying in their 
homes because they cannot fill their prescriptions, do not have 
access to ice to keep their insulin cool, or cannot reach in 
time a dialysis center that has electricity. There are entire 
communities that the government has been unable to reach due to 
widespread landslides and debris. This is happening in America 
today. Unless we see a dramatic increase in assistance and 
personnel reaching the island soon, many thousands could die.''
    So, Secretary Duke, I would like to ask you to respond to 
Governor Garcia's email and also in your response talk to us 
about what kind of planning about assets being deployed to 
Puerto Rico was made before the storm hit. We knew the storm 
was coming. We knew they had been glanced by Hurricane Irma and 
not hit as badly as some others by Hurricane Irma. But, here we 
are with a really dire situation, and my friend, the former 
Governor, says, ``We need the Army and the National Guard 
deployed throughout the island now, today. This cannot wait 
another day. Despite Federal Agencies coordinating in San Juan, 
there is very limited presence of military personnel assisting 
people in the streets and throughout our communities.''
    So, Secretary?
    Ms. Duke. The President, Vice President, and I talked with 
the Governor yesterday, and that was about 1 o'clock, and he 
had no unmet needs at that point. So I will followup with him 
again, but I have offered to him, you know, to reach out to me 
directly in addition to our FEMA Administrator.
    There are challenges in getting to the outer parts of the 
island because the debris removal, the landslides are so 
strong. What we have done that is significant in addressing 
those specific concerns, we are using the DOD to now help with 
distribution. That generally is something that the Commonwealth 
would do itself, but we have heard stories of shortages. We 
have also heard stories of extortion. And so, to avoid that and 
make sure that the critical resources get to where they need 
to, we are using DOD for that as of yesterday afternoon.
    Senator Hassan. Well, thank you for that response, but I 
have to tell you that I know others have been in contact with 
the current Governor of Puerto Rico as well, and they are not 
hearing that all their needs have been met. And so, we have 
American lives at stake here, and I would urge you and the 
Department to do everything you can. And, I am concerned about 
why there were not more assets on their way to Puerto Rico as 
soon as the storm hit. We are almost a week out now.
    Ms. Duke. Absolutely. And, we have been air-dropping. It is 
a challenge, and we will never stop and we will never be 
satisfied. So, I agree with you, Senator.
    Senator Hassan. Well, thank you. I have a number of 
questions on homeland security, but given my time, I will yield 
back the remainder and wait for the second round. Thank you.
    Chairman Johnson. Thank you, Senator. Senator Peters.

              OPENING STATEMENT OF SENATOR PETERS

    Senator Peters. Thank you, Mr. Chairman, and thank you to 
our witnesses for being here today.
    I think that some actions by the administration, such as 
the travel ban as well as some very divisive rhetoric that we 
have heard coming out of the administration, have consequences, 
and sometimes very significant consequences. Beginning at the 
end of last year, we have seen a spike in anti-Muslim incidents 
in my home State of Michigan. We have seen a rash of bomb 
threats against Jewish community centers in Michigan as well, 
as well as across the country. That is why my colleague on this 
Committee Senator Portman and I wrote a letter together calling 
for the DHS and the DOJ to address these incidents and to 
provide the communities with the resources that they need to 
deal with these incidents.
    The letter was signed by all 100 Senators. Every one of the 
colleagues of the Senate believed that this is something that 
we have to address. And, make no mistake, I think that some of 
the darkest elements in our society have become emboldened, and 
we need to look no further than the white supremacy protests in 
Charlottesville as well as other activities across the country 
to bring this to our attention.
    So, I want to follow up on a question by Ranking Member 
McCaskill to Mr. Wray. I know the question was how many agents 
do we have related to domestic terrorism versus international 
terrorism, but maybe I will ask a broader question. What are 
the resources, what are your budgets? I will start with you, 
Secretary Duke. What is the budget in your Department for 
domestic terrorism versus international terrorism?
    Ms. Duke. We have no specific delineation in the budget for 
domestic terrorism versus international terrorism. We do 
believe that homegrown violent extremists (HVEs) who are 
persons in this country with an international nexus or 
motivation are our biggest threat, but we are looking at both 
the homegrown violent extremists and the domestic terrorists, 
but no specific delineation.
    Senator Peters. Director Wray.
    Mr. Wray. Senator, my answer is similar. We do not have in 
our budget allocations between specific types of terrorism. We 
do have allocations of agents and other resources to 
counterterrorism, and we tend to move agents and other analysts 
sort of seamlessly between squads depending on the particular 
time period, the particular field office, depending on the 
threat assessment in that community.
    Senator Peters. In your response to Senator McCaskill's 
question, you can provide that information to us so we can get 
a sense of how those allocations are occurring?
    Mr. Wray. Let me see what information we can provide to be 
helpful, yes.
    Senator Peters. I would appreciate it. Mr. Rasmussen.
    Mr. Rasmussen. I have no responsibility for domestic 
terrorism. The legislation that created NCTC specifically made 
clear that we were not to engage in tracking or analyzing 
threats related to domestic terrorism.
    Senator Peters. All right. Thank you.
    It is also my understanding that, unlike international 
terrorism, we currently do not have any domestic terrorism 
legislation or statute. Do you think this legislation may be 
something we should consider, Director Wray?
    Mr. Wray. Senator, I am aware of ongoing discussions about 
the possibility of a domestic terrorism statute. As you 
correctly note, there is not a domestic terrorism crime as 
such. We in the FBI refer to domestic terrorism as a category, 
but it is really more of a way in which we allocate, which 
agents, which squad is going to work on it.
    I will say that in the domestic terrorism context, just 
like the international terrorism context, we take very much the 
approach that we are going to use all the tools at our 
disposal. So, a lot of the domestic terrorism cases that we 
bring, we are able to charge under gun charges, explosive 
charges, all manner of other crimes. We also work a lot with 
State and local law enforcement who can sometimes bring very 
straightforward, easy-to-make cases, homicide cases, things 
like that.
    So, we have a lot of tools. We can always use more tools, 
and it is something that I am looking forward to learning more 
about.
    Senator Peters. Secretary Duke.
    Ms. Duke. Yes, we take both seriously, and oftentimes when 
we encounter an act of violence, we do not know if it is 
internationally motivated or domestically motivated. So, we 
take every threat and every act of terrorism, every act of 
violence with a motivation very seriously. They have a 
commonality in hate. It is just where their motivation comes 
from, an external international terrorist organization or 
internally. But, as was correctly said, the occurrences are 
stronger. We are trying to do it both from law enforcement 
through the FBI, but also through education programs to try to 
help communities be able to respond to it and be able to 
counter it.
    Senator Peters. Thank you.
    Chairman Johnson. Are you ready? Senator Carper.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. How is it going? We are glad you are here. 
Thank you. Thank you very much for your service and for joining 
us today.
    I do not know that this has been covered. My guess is it 
probably has not been, although we have covered what I am about 
to ask many times. But, Ms. Duke, I am going to ask maybe for 
you to start off.
    The President has indicated a willingness to find common 
ground on legislation involving legalizing the status of 
Deferred Action for Childhood Arrivals (DACA) students in this 
country. He is interested in our doing some more work on border 
security. And, he has had an ongoing interest in a wall. But, I 
have had the opportunity to travel to the border with some of 
my colleagues, a number of my colleagues, with your 
predecessor, the Secretary, now the President's Chief of Staff, 
with former Secretary Johnson and others. And, I believe there 
are some places where a wall actually makes sense, but if you 
think about all the distance between the Pacific Ocean and the 
Gulf of Mexico, it does not make sense in a whole lot of 
places, and I think you know that.
    There are places where fences make a lot of sense. There 
are places where roads make a lot of sense, roads especially 
along walls or fences.
    There are places where boats make sense. There are places 
where boat ramps make sense.
    There is a fair amount of use of helicopters, fixed-wing 
aircraft, drones tethered to aerostats, dirigibles, stationary 
towers, mobile towers where they make sense.
    I used to be a naval flight officer (NFO) for many years, 
P-3 aircraft mission commander, and we did surface 
surveillance, subsurface surveillance, but we also on occasion 
would be tasked to do search and rescue. And, we put 13 guys in 
an airplane, fixed-wing aircraft, a couple thousand feet off 
the water, with binoculars to look for a life raft, and we were 
not often very successful. So, the idea of putting whether it 
is fixed-wing or helicopters or drones out there without--or 
towers or tethered dirigibles out there without really 
sophisticated surveillance technology to enable us to see at 
night, during bad weather, and for long distances into Mexico, 
if we do not have the surveillance technology on board, that 
does not make much sense.
    I have seen places on the border where horses make sense 
and you have really high grass and you get the Border Patrol 
agents up on a horse, and they actually do their job better. 
There are places where intelligence, better intelligence, 
information sharing makes sense.
    The other thing that we have heard about here and in a 
number of hearings is that old story, needle in the haystack. 
It is hard to find those needles. You can make the needles 
bigger. If you have the right kind of surveillance equipment, 
you can actually make the needles bigger. But, it is also 
helpful if you make the haystack smaller, and that might be by 
making sure that fewer people come, feel the need to flee 
Honduras, Guatemala, and El Salvador to come to our country, 
and that would make the haystack smaller.
    The last administration has been a strong proponent--and it 
has gotten bipartisan support in Congress--to actually address 
root causes of folks in Honduras, Guatemala, and El Salvador 
trying to get out of their countries, flee the murder and 
mayhem that threatens their lives and safety too often. And, 
the idea to find out what works, use something that has worked 
in the past, Plan Colombia, which we worked on for 20 years, 
has helped transform Colombia. They have had to do most of the 
work. We have helped. I like to say it is like at Home Depot: 
``You can do it. We can help.''
    That is a menu of options, if you will, to help secure our 
borders, and I just want you to direct at some of those--do any 
of those make sense to you as our Acting Secretary?
    Ms. Duke. Yes, they all make sense, to be honest, Senator 
Carper. We are looking at not only in between the points of 
entry but at the points of entry, through information sharing 
and vetting and credentialing. Our goal is to keep bad people 
out and to keep the illicit movement of goods so that we are 
not funding transnational criminal organizations, and that is 
the goal. And, how that happens, we are open to doing that. I 
offered to talk about reform bills with any member and let you 
know how operationally we think it would play out, and I 
reaffirm that offer.
    In terms of the Northern Triangle and Mexico, I am in 
dialogue with all of them and working through some 
international banks to also look at that. How can we make it so 
people want to stay in their countries, which is the ultimate 
goal? And, those discussions are ongoing. In fact, we had a 
meeting on it this week and looking at setting up a forum. So 
all of them.
    Senator Carper. Any quick comments, Mr. Wray? Nick, any 
quick comments before--my time has expired, but just very 
briefly.
    Mr. Wray. Well, I would just share Secretary Duke's view 
that we have to have a multidisciplinary approach which I think 
is built into, I think, your well-taken question.
    Senator Carper. All right. Nick.
    Mr. Rasmussen. Again, the responsibility of the 
intelligence community is to provide the best possible service 
to those who actually carry out the screening and vetting of 
individuals trying to come into the country. We take that 
responsibility very seriously. We have made business process 
improvements in how we do that, but there is more work to be 
done for sure.
    Senator Carper. All right. Thank you all.
    Chairman Johnson. Senator Harris.

              OPENING STATEMENT OF SENATOR HARRIS

    Senator Harris. Secretary Duke, in response to Senator 
Lankford's question about the Jones Act, you indicated you were 
not aware of any requests, that you were informed because you 
read it in the clips this morning. That troubles me. I am 
informed that there have been at least two requests: one from 
eight House Members led by Congressman Velazquez and another by 
Senator McCain. So, I am troubled because if you are unaware of 
those requests, it suggests that there is not a sufficient 
priority for Puerto Rico in your agency.
    Is there someone under you other than the FEMA Director who 
is responsible to reporting directly to you the status of your 
agency's work in Puerto Rico? And if so, can you give me the 
name of that person?
    Ms. Duke. We have the request from Congress, so if I 
misspoke, I apologize. We have the letters from Congress. Those 
go to Customs and Border Protection. We do not have any 
requests from industry, which is where they typically come 
from.
    Senator Harris. Is there a person under you who is 
responsible for reporting directly to you about the status of 
your agency's work in Puerto Rico in addition to the FEMA 
Director?
    Ms. Duke. No.
    Senator Harris. Can you please put somebody in place that 
can be responsible for responding to requests from Congress 
about your activities as it relates to the Jones Act or any 
other work in Puerto Rico?
    Ms. Duke. Yes.
    Senator Harris. And, you will follow up and give us a name?
    Ms. Duke. Yes.
    Senator Harris. And then, on the issue that Senator 
McCaskill raised, I was troubled to hear, Director Wray, but 
thankfully you are on top of it, that your agency has 1,000 
open investigations on domestic terrorism, 176 arrests for 
domestic terrorism. The FBI and DHS issued a joint intelligence 
bulletin in May of this year where you indicated, ``White 
supremacist extremists will likely continue to pose a threat of 
lethal violence over the next year.''
    So, Mr. Chairman, I am requesting that we open an 
investigation, a congressional investigation into this issue. 
According to the joint bulletin, the FBI and DHS define white 
supremacist extremists as ``individuals who seek, wholly or in 
part, through unlawful acts of force or violence, to support 
their belief in the intellectual and moral superiority of the 
white race over other races.'' I believe that this Committee 
has done a great job of conducting congressional investigations 
when we have found that there are Americans who are at risk of 
harm and violence, and so on this matter, I would ask that we 
do a similar investigation.
    Chairman Johnson. Request noted.
    Senator Harris. Thank you.
    On the issue of DACA, Secretary Duke, on September 5th you 
issued a memo rescinding the original June 15, 2012, memo which 
established DACA. And. to rescind DACA, you indicated that 
recipients will have some period of time in order to apply.
    I am told by folks who are working with renewal on the 
ground that they have seen a slowdown in DACA recipients 
reapplying. Are you prepared to extend the amount of time that 
they will have?
    Ms. Duke. We have had no requests. I did talk to one 
Senator about a potential need for an extension, but we have 
had no indication from DACA recipients that they are having 
trouble. We did check the system to make sure it is an easy 
system to reapply, and they do not have to reproduce their 
documents.
    Senator Harris. Have you convened or had a meeting at all 
and input from the community folks who are working on the 
ground to get information from them? And if not, I would 
request that you do that so you can get a complete picture of 
what is actually happening on the ground. But, I will tell you 
from the perspective of California, these young people are 
terrified. They are terrified. They were told by your agency 
that if they submitted this comprehensive information about 
their background and their status to apply for DACA, that that 
information would not be shared with Immigration and Customs 
Enforcement (ICE). I have asked you, I asked the former 
Secretary: Are you willing to keep America's promise to these 
young people and not share their information with ICE?
    Can you answer that question finally? It has not been 
answered the many times I have asked.
    Ms. Duke. I cannot unequivocally promise that, no, but I do 
know that----
    Senator Harris. So we will not keep our promise to these 
children and these young people?
    Ms. Duke. I am not familiar with the promise that was made 
to these children, but I do know that having them on 2-year 
non-renewable suspensions is not the right answer, and I look 
forward to working with the Congress in coming up with a better 
solution.
    Senator Harris. OK. And, I will submit for the record\1\--
and I will give you a copy of the document--where the U.S. 
Government told these young people when they applied for DACA 
status that we would not share their information with ICE. You 
have not seen this document?
---------------------------------------------------------------------------
    \1\ The information submitted by Senator Harris appears in the 
Appendix on page 161.
---------------------------------------------------------------------------
    Ms. Duke. No, I have not.
    Senator Harris. OK. I will give a copy to you. I have it 
here, and I will give you a copy. I think I presented it to 
you, and certainly the person that received it before.
    Ms. Duke. OK, and I will get you an answer.
    Senator Harris. And I would like that answer before the end 
of the week, please.
    You also indicated when you last testified before us that, 
in terms of the seven new enforcement priorities, they were in 
descending level of priority. Following your testimony before 
this Committee, the former Secretary said that there was no 
priority in terms of that list. So, which is the policy of your 
agency? And, how have you instructed the people on the ground 
about what are the enforcement priorities of your agency?
    Ms. Duke. Those are enforcement priorities; however, an ICE 
agent is not restricted from apprehending anyone who is in 
violation of law.
    Senator Harris. There are seven enforcement priorities. 
Have you instructed the agents on the ground about which are 
the highest enforcement priorities versus the lowest, given 
that with all Agencies, and certainly yours, you have limited 
resources?
    Ms. Duke. Yes.
    Senator Harris. Can you give that information to me, 
please?
    Ms. Duke. Yes.
    Senator Harris. Now?
    Ms. Duke. Oh, now?
    Senator Harris. Yes.
    Ms. Duke. We have the DHS policy, and then we have the ICE 
policy. And, they all say that these are the priorities for 
enforcement. If there is any targeted enforcement, they are 
against the priorities. However, if an ICE agent encounters 
someone that is not a priority but is still an illegal 
immigrant, then they would be apprehended also using the 
discretion of the ICE agent.
    Senator Harris. Mr. Chairman, I see my time is up. I will 
resume this in the second round. Thank you.
    Chairman Johnson. OK. Thank you. And, just real quick, 
following up on your request in terms of an investigation on 
white supremacists and domestic terrorists, I met with Director 
Wray prior to this meeting, prior to this hearing, and just 
confirm this. You said you had about 1,000 active 
investigations on basically white supremacist domestic 
terrorists, about 1,000 ISIS-related. Just kind of confirm that 
that was accurate. But, also, do you take the threat of white 
supremacist terrorists or violent extremists any less seriously 
than you do those perpetrated potentially by ISIS?
    Mr. Wray. No, we do not. We take both of them very 
seriously. Our focus is on violence and threats of violence 
against the people of this country, and that is our concern. It 
is not ideology or anything else. It is the danger and the 
violence of the threats toward people in this country.
    On the number, the other part of your question, it is also 
true that we have about 1,000 open ISIS-related investigations 
at this time as well. So, we are very busy.
    Chairman Johnson. And, except for the difference in the 
nexus to foreign fighters and the international connection 
there, is there any difference in your investigation 
techniques, your prosecution techniques, what you charge white 
supremacist violent extremists with ISIS-related violent 
extremists? Is there any difference in that approach?
    Mr. Wray. I would say in most ways they are similar. 
Probably the biggest difference is the one that Senator Peters 
elicited, which is that there is not a domestic terrorism 
offense as such like there is a material support to foreign 
terrorism provision. And then, of course, there are certain 
tools, investigative tools, like Foreign Intelligence 
Surveillance Act (FISA) that is only available for foreign 
offenses.
    Chairman Johnson. OK. Thank you. Senator Hoeven.

              OPENING STATEMENT OF SENATOR HOEVEN

    Senator Hoeven. Thank you, Mr. Chairman. I would like to 
thank all the witnesses for being here today and start with 
Secretary Duke.
    Secretary Duke, in your testimony you noted that DHS lacks 
authority to counter threats from unmanned aerial systems 
(UAS). In my State we are very involved with UAS, also with 
Customs and Border Protection using UAS on the border. We have 
one of the six test sites there for development of unmanned 
aircraft. So, talk to me about--can you describe in some 
greater detail the domestic threat of unmanned aircraft and 
what authorities you do not have, what authorities you should 
have, and what we can do?
    Ms. Duke. We are seeing an increased use of drones. They 
could be for surveillance, they could be for bringing illicit 
materials, or they could be for acting violence.
    What we lack are some of the signals--the ability to 
interdict, if you will, the signals so that we can try to 
determine if this is a friendly or foe-type drone. And so, we 
are not the only ones lacking that ability. I think because it 
is a new threat, the specific authorities to monitor these 
drones does not exist generally.
    Senator Hoeven. Would it be possible for you to get me 
something that would give me some, I guess, direction in terms 
of what would be helpful to you to understand how you could 
better try to monitor those drones, again, with reasonable 
protections for civil liberties and those kind of things, but 
maybe some information that you could provide us----
    Ms. Duke. OK.
    Senator Hoeven [continuing]. In determining how we could 
craft authorities that might be helpful in that regard. And, 
are you talking primarily on the border, or are you talking 
other locations as well?
    Ms. Duke. It could be other locations as well, but they 
would be primarily in the border for us. Other agencies have 
different types of problems, but we would be looking primarily 
from the border States, across the border States.
    Senator Hoeven. OK. And, Director Wray, same kind of 
question to you. What are you doing in this area? Again, we 
have a test site where we are developing these capabilities, 
and this may be something that we can work on on the test site. 
So, from the FBI's perspective, can you address drones and the 
threat they present?
    Mr. Wray. Senator, I welcome the question. It is a topic 
that we have been discussing a lot lately. I think we do know 
that terrorist organizations have an interest in using drones. 
We have seen that overseas already with some growing frequency, 
and I think the expectation is it is coming here imminently. I 
think they are relatively easy to acquire, relatively easy to 
operate, and quite difficult to disrupt and monitor. So, that 
is something that I would welcome working with the Congress as 
well as with the other Agencies to try to figure out a 
solution.
    Senator Hoeven. Do you have a group of any kind that is 
working on this issue right now? Or what are you doing in 
regard to unmanned aircraft and the threat they present?
    Mr. Rasmussen. I can jump in there, Senator.
    Senator Hoeven. Sure.
    Mr. Rasmussen. I know starting with the intelligence that 
Director Wray talked about where we saw ISIS and other groups 
using these capabilities overseas on the battlefield in Iraq 
and Syria, we brought the community of intelligence 
professionals together in Washington to try to present a clear 
picture that we can then share with State and local partners 
around the country and begin to explain at least the tactics 
and techniques that individuals might use to try to bring harm 
to communities. That can be dropping small explosives the size 
of a grenade. It could be dispersal of toxins potentially. So, 
sharing that information is a first step.
    The next step is to begin to think about true defensive 
measures that either we employ as a Federal Government or 
recommend to State and local governments that they could employ 
at manageable cost, and that is a process, I think, that is 
underway. There is a community of experts that has emerged 
inside the Federal Government that is focused on this pretty 
full-time. Two years ago this was not a problem. A year ago 
this was an emerging problem. Now it is a real problem, and so 
we are quickly trying to up our game on this.
    Senator Hoeven. I might ask then, Director, who is taking 
the lead? Are you taking the lead in that effort? Is there some 
coordinating mechanism across law enforcement agencies to 
develop a strategy and implement it?
    Mr. Rasmussen. I do not know yet that we have designated a 
single agency lead. We are trying to simply right now catalogue 
who all has capability to bring to bear against the problem, 
because it will not just be the law enforcement community. It 
will, of course, be the broader community involved with 
aviation that will have equities here as well.
    So, what I am talking about is trying to do a better job of 
convening everybody in the Federal Government who has a stake 
in this and a capability to bring to bear. That work is 
underway.
    Senator Hoeven. Are you doing that?
    Mr. Rasmussen. I am participating in that. I am not leading 
the----
    Senator Hoeven. I am trying to understand who will be the 
lead.
    Mr. Rasmussen. I will get you an answer on that because I 
do not know who is the true belly button on this.
    Senator Hoeven. Yes, and I am just trying to find out who 
you all think would be a good lead person for us to interface 
with to try to do this in the best way. It is just getting your 
recommendation, not trying to trip you up or indicate you have 
not done something. I am just trying to find out what you all 
think would be the best place to get a lead to work on it.
    Mr. Rasmussen. Well, I will certainly come back with a more 
thoughtful answer on where the best place to plug in with a 
lead is.
    Senator Hoeven. Thank you.
    Any other thoughts?
    Ms. Duke. I was just going to say that we have started 
talking about this with the National and Homeland Security 
Council. This is an interagency process, and I think that would 
be the best process to come up with a Federal position.
    Senator Hoeven. And, we will follow up with both of you, as 
well as Director Wray, and just try to find a good lead and 
make sure we are helping in the effort.
    Thank you.
    Chairman Johnson. Senator Tester.

              OPENING STATEMENT OF SENATOR TESTER

    Senator Tester. Thank you, Mr. Chairman. I want to thank 
the members of the panel for being here. I apologize. I have a 
committee, a committee, and a committee today.
    Guys, I appreciate your service, but I am not going to ask 
you any questions. They are all going to go to Ms. Duke. Do not 
hold that against me.
    Elaine, during the omnibus, 2017 omnibus, we put language 
in that to require a report to be sent back to Congress by 
August 4th talking about the most effective solutions for the 
Southern border. We have yet to receive that.
    First of all, do you know about that, number one? And, 
number two, can you give me a timeline when it is going to be 
here? Because, funding season, actually we are beyond it. We 
may be dealing with that funding bill next week, so it is 
really important that we know that. As Lamar Alexander said, we 
are not going to cut you a blank check, so we need to know what 
that plan is.
    Ms. Duke. I do know about it. I am supposed to receive it 
next week, and earlier I said within the next month. If you 
have any specific needs as you deal with the funding bill, then 
we can work with you on that.
    Senator Tester. I am glad you brought that up. I mean, it 
is supposed to be a comprehensive report. That means that you 
are going to look for the most cost-effective ways to make that 
Southern border secure. That means that the politics of a wall 
should not be in the picture. It should be about what you guys 
believe are the best options to make that border secure. And, 
we should not be backing into anything. We should be looking 
forward and giving us ideas on what you want and what the 
potential cost is. And so, that is what I need, and not on 80 
miles of the border but on the border. And so, are we on the 
same page?
    Ms. Duke. Yes, absolutely. What the Border Patrol needs to 
secure the border is what we are focused on.
    Senator Tester. Yes, well, I think it is just really 
critically important. I do not think there is anybody in 
Congress that does not want secure borders. But, the last 
proposal that came in on an informal meeting was $24 million a 
mile for a wall, and I am one that does not--I do not think the 
wall is the most effective way. We have technology out there. 
It does not have stranded costs of land on the other side of a 
potential wall. And, by the way, you can tweak technology to 
make it work more and more effectively.
    So, I just hope we get a good, comprehensive look on what 
is needed. You guys are the pros. You guys are the folks that 
are on the ground. We need an unbiased political opinion on 
what is best for this country, because it is a lot of dough. 
So, thank you for that.
    Earlier this year the President's budget sought to 
eliminate the TSA law enforcement in our airports, over 300 
nationwide. I do not understand what went into that thought 
process, and I am certainly not blaming you because it was 
drafted long before you were in this position. But, airports 
large and small would have fewer people on the ground, and it 
would burden airports with an unfunded mandate, which, by the 
way, I do not believe they have the resources to be able to 
fund.
    We have seen plenty of tragedies that have emanated from 
airports around the world and in this country. What is your 
position on this? You know what answer I want, but I want to 
know what is in your head. Do you believe that funding TSA in 
our airports is a critical component? And, what has been your 
conversation with the folks--and I know you are Acting--above 
you on this issue?
    Ms. Duke. DHS' position is that we try to look at what 
expenditure of funds brings the most value to aviation 
security. Some of the reductions that were put in the budget 
like having someone posted at the exit, those type of things, 
behavioral recognition as a stand-alone function, were ones 
where we either do not have evidence that they are successful 
or that we feel like they are lower risk than other types of 
protection.
    We believe in TSA. We have to be more efficient. We are 
looking at technologies to do that so it is not just human-
intensive. But, it is an ongoing process, and we have to 
continue to refine it.
    Senator Tester. I appreciate that. I will just tell you 
that the reimbursement program is really critical. And, by the 
way, I cannot thank you enough to look at where you get the 
most bang for the buck. But, security costs money. I think you 
would agree on that.
    Ms. Duke. Yes.
    Senator Tester. We have just got to figure out how to do it 
better, and I just think that this could be the epitome of 
shooting oneself in the foot.
    Thank you all very much. Thank you for your service. 
Christopher, next time around we will do some good stuff. Same 
thing with you, Mr. Rasmussen. So, thank you all very much.
    Chairman Johnson. Senator Daines.

              OPENING STATEMENT OF SENATOR DAINES

    Senator Daines. Thank you, Chairman Johnson.
    Director Wray, cyber terrorism is an emerging threat that 
has become all too real in Montana. In fact, just 2 weeks ago, 
the Columbia Falls School District received cyber threats 
promising harm and demanding ransom. This forced the closure of 
more than 30 schools across multiple school districts, affected 
over 15,000 Montana children. It is unprecedented. We have not 
seen that before in my home State of Montana. The culprit has 
been identified as the ``Dark Overlord,'' an overseas criminal 
organization.
    Mr. Wray, are you aware of these cyber threats? And, is the 
FBI investigating?
    Mr. Wray. Yes, Senator, we are actively involved in the 
matter that you are referring to in Montana. I want to be 
careful not to discuss an ongoing investigation, but I will 
tell you that I could not agree more that this concept of 
ransomware, cyber terrorism, the various variants of it that 
are hitting, and I think the example in your State illustrates 
that it is everywhere now. It is no longer just ransomware to, 
a big Fortune 500 company. It is hospitals; it is schools in 
your case.
    So, it is a threat that is growing. We have a lot of 
matters ongoing related to it. In some cases we have indicted 
ransomware authors. In other cases we have what is called 
``sinkholed'' them, which is redirect them essentially into the 
hands of law enforcement. But, make no mistake, it is a very 
serious threat, and it is growing.
    Senator Daines. So, I understand it is an active 
investigation, and you are limited in providing details. 
However, looking back at the big picture, what is the FBI doing 
to attribute these cyber crimes and help bring these criminals 
to justice?
    Mr. Wray. There are a variety of technological things we 
can do. We are also working with partners to try to exchange 
information to help identify sort of telltale signs that may 
help us link back to particular organizations.
    I think one of the things we are seeing more and more in 
this area as much as any other is how the stuff transcends 
boundaries, and so some of the same organizations are targeting 
victims in other countries as well. And so, we are really 
working more and more with our partners to try to see if we can 
have their two plus our two to get more than four, to get five 
and six so that we can really deal with these otherwise very 
elusive foes.
    Senator Daines. Ms. Duke, as you mentioned, General Kelly 
in his short time at the helm drove down illegal immigration 
and boosted Department morale. I think one of the underreported 
stories in this country is what you have seen in terms of the 
apprehensions and the decline of crossings coming across our 
Southwest border. General Kelly sat right where you all are 
sitting awhile back and shared some of these remarkable 
improvements, quantifiable reductions of 60 or 70 percent. And, 
I have confidence that you will continue on that trajectory.
    These recent cyber threats that I described here with the 
Director have Montanans shocked. They are nervous. It hits 
right at the core of who we are, our children. But, as you 
mentioned in your testimony, Americans will not be intimidated 
or coerced.
    You also briefly touched on identifying and punishing those 
who exploit cyberspace. What efforts has DHS taken to improve 
attribution capabilities?
    Ms. Duke. If I could real quickly, we went up six points in 
the employee survey this year, also, so that was another good-
news story, a tremendous amount of work----
    Senator Daines. I know they greatly respect and appreciate 
the emphasis on enforcing the law and law and order, so thank 
you.
    Ms. Duke. Thank you. So, we are working a lot with the 
critical infrastructure. Cybersecurity has to start with those 
that own the systems, and so what we are working on is, through 
our monitoring and our diagnostics, protecting not only the 
Federal systems but alerting and keeping the critical 
infrastructure, the private sector aware of threats that might 
come out. So, we do information bulletins. We do those types of 
things.
    Recently, one of the more severe actions was a binding 
operation directive on specifically a significant threat in 
terms of the Kaspersky software. So, it depends on the 
situation. We work closely, we sit with the FBI, so there is a 
seamless--from just countering it as just a bug to it being a 
criminal activity.
    Senator Daines. OK. Thank you.
    Chairman Johnson. Thank you, Senator Daines.
    Director Rasmussen, last year, prior to your testimony, 
Central Intelligence Agency (CIA) Director Brennan testified 
before the Senate Intelligence Committee, and his basic quote 
on ISIS was that, ``All our efforts have not reduced the 
group's terrorism capability and global reach. ISIS remains a 
formidable, resilient, and largely cohesive enemy.''
    A month or two later, in your testimony before this 
Committee, you said, ``Despite this progress, ISIS' ability to 
carry out terrorist attacks in Syria, Iraq, and abroad has not 
to date been significantly diminished, and the tempo of ISIL-
linked terrorist activity is a reminder of the group's 
continued global reach.''
    To paraphrase your oral testimony today, you basically said 
that the capacity or capability of ISIS has not been mitigated, 
they remain resilient.
    Is that pretty much your feeling, that even though we are 
making great gains--and we have been--I mean, we really are 
denying that territory, destroying that caliphate. Is their 
global reach undiminished?
    Mr. Rasmussen. Their global reach remains profound. I would 
make one distinction, though, and one thing that I think that I 
pointed to this year that was not on the table last year is we 
have seen a reduction in the ability of ISIS to be able to 
actually direct and command and control attacks from their safe 
haven in Iraq and Syria. That is the good news.
    The bad news is that they have shown an expanded ability to 
be able to inspire individuals to take the kinds of actions 
that we have seen in places across Europe and potentially even 
inside the homeland here.
    There is a good news/bad news element to that. Obviously, 
attacks that are driven by an organization under a command-and-
control structure involving all the resources of that 
organization can be larger and more complex and more lethal. 
But, that is not to minimize the lethality that comes with a 
lone individual who may have acquired a firearm or developed an 
explosive device. So, I do not want to overstate the degree to 
which our threat condition is significantly mitigated by having 
these inspired plots as opposed to these directed plots.
    But, the underlying point in my testimony was it is going 
to take a longer period of time than we would like to mitigate 
the threat condition posed by ISIS. Battlefield success is 
necessary. It is coming. It is happening. It just is not going 
to produce the results we want from a threat perspective as 
quickly as we would like.
    Chairman Johnson. Also last year, Director Comey testified 
that ISIS, ``They will not all die on the battlefield in Syria 
and Iraq. There will be a diaspora sometime in the next 2 to 3 
years unlike we have ever seen before.''
    About a month or so ago, you had a different assessment on 
that. Can you talk a little bit about that? Are we not seeing 
that spreading?
    Mr. Rasmussen. I think we have come up with a more nuanced 
assessment just based on what we have seen with data over the 
past couple of years, and that is, more of these individuals 
who have gone to fight in Iraq and Syria are deciding to stay 
in the conflict zone to fight and ultimately in most cases die 
fighting to preserve their self-declared caliphate.
    What we expected when we saw that large inflow of foreign 
fighters was at some point to deal with a large outflow. That 
outflow is coming. It is, in fact, in some ways already 
happening, but it is not nearly as large in volume as perhaps 
we anticipated. That is a good thing that we are not going to 
have to deal with thousands and thousands of foreign fighters 
departing the conflict zone.
    I would say, though, quality matters here. Quality matters 
in some ways more than quantity. The wrong set of individuals 
who escape from the conflict zone in Iraq and Syria, if they 
have a particularly specialized set of skills or a particularly 
full Rolodex or deep connections into an extremist community in 
Europe or even potentially here inside the United States, they 
could pose a significant threat to us. But, volume is not what 
we expected it to be.
    Chairman Johnson. And, if they have safe havens. I mean, 
are we seeing them move to Libya, to Afghanistan, where, again, 
they have safe havens?
    Mr. Rasmussen. In some cases, yes, but, again, not in large 
volumes. But, there are other conflict zones where some of 
these fighters are looking to move.
    Chairman Johnson. Director Wray.
    Mr. Wray. Mr. Chairman, I would just add one related point, 
which is I think we are starting to see some of the people who 
we previously thought would have traveled to fight over there 
being encouraged, because of the way things are going on the 
battlefield, to stay put in their respective countries. So, it 
is a variation on what I think Director Comey was referring to.
    Chairman Johnson. In my office earlier, Director Wray, we 
were talking about how our priority as a Committee is border 
security, cybersecurity, critical infrastructure. We talked 
about cybersecurity almost being above everything else. I mean, 
it is infiltrating and fueling all these other threats.
    The other thing we talked about--and this is a concern, 
too--is because that cyber capability, because of the Internet 
connecting everybody, for good and for ill--let us talk about 
the ill. The cooperation between potentially terrorist 
organizations, drug cartels, transnational criminal 
organizations, can you just describe how we are seeing that 
witch's brew being developed because of the Internet?
    Mr. Wray. I think what we are seeing, Mr. Chairman, is a 
blurring between different kinds of threats, so we are seeing 
in the counterintelligence arena nation-states enlisting the 
help of hackers for hire, for example. We are seeing 
transnational criminal organizations veering more into what 
would previously have been thought of as cyber crime. And, 
throughout all of the different types of threats we are facing, 
because more and more of it is online, encrypted platforms, 
etc, the modality of the threat is changing across all of them.
    Chairman Johnson. Thank you. Senator McCaskill.
    Senator McCaskill. We used to have a joke about the FBI 
when I was the District Attorney (D.A.) in Kansas City, and 
that was, if you wanted to get information out of them, you 
better make sure you had something they needed, because 
sometimes it was very difficult to open up the lines of 
communication, even among everyone who is doing the same work. 
So, when I read the Inspectors General reports\1\ in March that 
reviewed the ability of the intelligence community, DHS, and 
Department of Justice in terms of how well they are sharing 
information and really indicted all three parts of our 
government that are responsible for going after 
counterterrorism, that you are not doing a very good job of 
sharing information.
---------------------------------------------------------------------------
    \1\ The report referenced by Senator McCaskill appears in the 
Appendix on page 75.
---------------------------------------------------------------------------
    I understand the nature of this problem because you want to 
hold on to stuff that you do not want people to know that could 
misuse it or leak it, but I think it is really important. We 
have been talking about sharing information since the fires 
were still burning in those Twin Towers and how we are going to 
do it better and more effectively. And, this is not even the 
age-old problem of local versus Federal sharing of information. 
This is Federal to Federal.
    Can you address what the three of you are doing right now 
to look at the recommendation made by these Inspectors General 
from the three parts of the government that should be working 
together hand in hand?
    Mr. Wray. I will go first. So, Senator, I would say first 
as to the Inspector General, he is somebody I have known and 
worked with for a long time. I had a one-on-one meeting with 
him early, I think within the first week of my arrival on the 
job, to try to learn what issues I needed to be focused on. 
And, I am continuing to try to evaluate that recommendation as 
well as a number of others.
    I will say on the information-sharing front that to me, as 
somebody who was in Government on 9/11, around for all the 
discussion of information sharing that you are referring to, 
that while we clearly have a long way to go, I have a little 
bit of the perspective, having gone and come back, and I will 
tell you it is so much better now than it was before. I mean, 
it is light years. Walking around going into field offices, 
seeing people from DHS collocated with people from the FBI, 
people from the CIA collocated with the FBI, every meeting all 
my folks want to talk about is the great relationships they now 
have with this agency, that agency.
    So, can we get better? Absolutely. But, I do want to 
reassure you that great progress has been made on this front.
    Senator McCaskill. That is terrific. Do we have a specific 
plan on implementing the recommendations? Secretary Duke.
    Ms. Duke. We are focused--there has artificially--I agree 
with Director Wray that it has improved. There was an 
artificial separation between law enforcement and the 
intelligence communities that we have had to overcome.
    One of the major areas we are very close to overcoming is 
on vetting, and we have come up with a model that should be 
finalized very soon that will allow absolute clear sharing of 
information when it comes to vetting of persons, which is one 
of the most important areas to us, and that is what we have 
been focused on.
    Senator McCaskill. I have been worried about how long it 
has taken us to notify the States about the potential efforts 
to scan voter registration files in their States. I am even 
more concerned, once I realized that one State was notified--I 
believe your State was notified--that this had occurred, and 
then the next day there was another callback to say, well, no, 
it did not occur.
    I assume that you all agree that we are still at risk--just 
speak up if you disagree that we are still at risk from Russia 
trying to interfere in our elections and election processes. 
And, if you all do agree with that, what is our strategy going 
forward? How are we going to do what needs to be done to notify 
the American public if this is going on and prevent it from 
actually happening in all of these various ways that Russia 
played around in our democracy? They do not even understand 
what a democracy is in Russia. And, it is pretty nervy for them 
to do this, try to break the backbone of democracy. And, they 
are doing it in a variety of ways. I just want to make sure 
that you all are preparing for this next year and have a plan.
    Ms. Duke. Yes, in terms of the notification, we notified 
the States back when the intrusion occurred. What we learned 
from that and what we are correcting is that we notified the 
system's owners, and that did not necessarily notify the right 
senior officials that need to take action. So, that is 
corrected. And, I know that our counterparts here are working 
on the identification and attribution pieces.
    Senator McCaskill. Are you ready for next year?
    Mr. Wray. Senator, we are spending an enormous amount of 
time talking about this very subject. We are surging more 
resources specifically focused on the upcoming elections. We 
are collecting more intelligence.
    One of the things we know is that the Russians and other 
State actors are trying to influence other elections in other 
countries as well. So, that is one of the places where those 
partnerships have become so important because we can exchange 
information about tradecraft, methods, capabilities.
    We are also in the FBI looking at this as a 
multidisciplinary effort not just across agencies but even 
within the FBI multidisciplinary. So our counterintelligence 
and our cyber people are working together on it. Those are a 
few examples.
    Senator McCaskill. I know I am over time, but just--and if 
you need to take this for the record, just one more. Is 
somebody looking at the dark money that is going into these 
political campaigns? We have the ability of people to give 
money and never be identified publicly to influence campaigns, 
millions and millions of dollars. Is somebody at the FBI going 
through all of these so-called super Political Action Committee 
(PACs) that can take money without attribution to the public 
and seeing where their money is coming from?
    Mr. Wray. Senator, let me see if there is something I can 
provide you in writing after the hearing.
    Senator McCaskill. Yes, because, the notion that nobody in 
public ever gets to know where this money is coming from, that 
is like tailor-made for Russia, and that is where the majority 
of the money is being spent in our elections right now, sadly, 
as a result of Citizens United.
    Chairman Johnson. Senator Lankford.
    Senator Lankford. Thank you.
    Director Wray, let me ask a question and just read 
something that comes off the FBI website. It says, ``Hate 
itself is not a crime, and the FBI is mindful of protecting 
freedom of speech and other civil liberties.''
    So, what I am trying to figure out is a trend and a 
direction. I hear a lot about hate groups now, and we have 
always talked about hate crimes. So, what I am trying to figure 
out is: Is the FBI maintaining a list of hate groups that are 
under greater scrutiny? And if so, how is that list developed?
    Mr. Wray. Senator, we do a couple different things. Our 
focus is not on--we do not track movements or ideologies or 
groups that have specific beliefs. We focus on situations 
where--so from a terrorism angle, there are two different 
pieces of that. There is a domestic terrorism angle, for 
example, and a hate crime angle, and we do both. We focus on 
the threat of violence, and so there has to be proper 
predication for us to start an investigation. The FBI has a 
history that we try to be very sensitive to about not 
investigating people for their beliefs in this country.
    Senator Lankford. And, that is entirely appropriate and 
protected in the United States to have whatever belief you want 
to have, even if it is wrong. It is entirely appropriate. My 
question is: Are you tracking--does the FBI keep a list of hate 
groups, or do you outsource that to some other group? If I 
called the FBI and said, ``Who is on your list of hate 
groups?'' would there be a list?
    Mr. Wray. We have, I would say, networks of people that are 
working together, and then we have--so that is groups in that 
sense. I do not know that we would call them ``hate groups.'' 
But then, we also have certain--I think we have nine designated 
movements that we use as sort of identifiers for particular 
types of--it is just a way of categorizing investigations.
    Senator Lankford. But, it is a list the FBI has created, no 
outside group is creating that for you and sending it to you?
    Mr. Wray. Correct, absolutely.
    Senator Lankford. Thank you.
    Ms. Duke, let me ask you about entry-exit visas, and we 
have talked about it before as well on it. The report came out 
in May listing out people who have overstayed their visa from 
last year. We have 600,000 people in the country that have 
overstayed a visa, and we do not know where they are. So let me 
ask you a question from the 9/11 Commission, from something 
that is a decade and a half in the making here.
    There was a requirement to put in place entry-exit visa 
verification. If they come into the country, we know who they 
are. When they are leaving, we should be able to track and know 
when they leave and if they leave; and if they do not leave, to 
be able to go find them and to figure out why they are still 
here. How is that going? There is a pilot program that is 
underway. I want to know how that is advancing, if everything 
is on schedule.
    Ms. Duke. Yes, the pilot program that uses photos and 
biometrics is doing very well. Our next phase, which we are 
implementing now, is integrating it into TSA. It was only being 
used by CBP. And to date, that is the way we intend to 
progress. The pilot has proved itself successful so far in its 
limited application.
    Senator Lankford. OK. Full rollout will be by when?
    Ms. Duke. I would have to get back to you with a date on 
that, Senator.
    Senator Lankford. OK. That would be very helpful just to be 
able to get a feeling of when we are rolling out and how long 
this is going to take. This has been a request for a very long 
time of Congress, and I know you are walking into this and 
trying to help finish a project that is ongoing. But, it is one 
that is exceptionally important and continues to grow in 
importance.
    Ms. Duke. Agree.
    Senator Lankford. Let me ask a little bit about elections 
again. I had asked you before about any State request for 
onsite assessments, and you felt like any State that wants to 
get it, that you are prepared to be able to do it. I would tell 
you I have had this conversation before with DHS folks, and 
their statement to me was, ``If we had more than just a few 
States ask us, we are not personnel ready to be able to 
actually go help them in time for the 2018 elections.''
    So, what I would like to do is have a longer conversation 
with you where we can walk through and see what you are going 
to need to be able to be at that point, because it has been my 
understanding in the past that DHS is currently not prepared to 
be able to fulfill requests as they are coming in. And, maybe 
requests are not there yet, but if 10 States all made the 
request at the same time, we could not make it in time for the 
2018 election, and we have a lot more than 10 States that may 
make that request and try to figure out how we can get you 
ready for that.
    The other one is trying to get States--and what I am 
interested in is your perception, where States are right now in 
understanding the risk, as the notifications have gone back out 
again to individuals, and thank you for correcting who gets 
notified in States. That does make a difference in getting the 
message out. But, as that is going out, do States understand 
the significance of the cyber threats they face on their 
network, from their voter data lists, from the equipment that 
is there? Are they prepared to do an audit? And, again, I am 
not asking for the Federal Government to take over the States' 
elections. That is theirs. But, are they prepared to be able to 
do an audit where they can verify with paper and with 
electronic, if they use electronic, to be able to even audit 
after the election whether their machines have been hacked or 
affected at all?
    Ms. Duke. We have seen some more interest. There still are 
people, I think, artificially delineating between voter 
databases and election. And so, I would like to see more sense 
of urgency, but the cyber threats are at the forefront of us 
every day.
    Senator Lankford. All right. Well, if they get into a voter 
database and they delete people or they add people, you lose 
the integrity of the election at that point and people lose 
trust, because they show up and they are not registered to vote 
and they used to be, and now suddenly they are gone from a list 
because someone reached in and changed it. So, that does 
affect, again, just the sense of trust in the election, and we 
want to be able to maintain that and to be able to push back on 
the Russians or anyone that may try it next time, and to say 
not on our system, not ever.
    Thank you.
    Chairman Johnson. Senator Hassan.
    Senator Hassan. Thank you, Mr. Chairman. And, just to echo 
Senator Lankford's point, one observation I have is that DHS 
often has very good relationships with homeland security 
personnel and emergency preparedness folks in the States. The 
outreach to folks who run elections in the States is kind of a 
new thing for DHS, and I would urge you to marshal the 
resources that you have good relationships with in the States 
to try to foster that bridge to the election officials, because 
we all share this sense of urgency about 2018.
    I wanted to follow up on Chairman Johnson's very important 
question on the ISIS diaspora. Not all ISIS members are going 
to die on the battlefield, as you have all pointed out, and we 
are going to need a robust strategy for dealing with ISIS 
foreign fighters once the so-called caliphate truly fails.
    So that end, Secretary Duke, I want to ask you about ISIS 
teams of Homeland Security Investigation Officers that are now 
deployed to 30 U.S. embassies and consulates. These teams of 
law enforcement officers, which we call ``visa security 
teams,'' are trained counterterrorism professionals who aid the 
State Department's consular offices as they make decisions 
about whether to grant U.S. visas to foreign nationals.
    Given the chance that many ISIS foreign fighters will 
return to their home countries, it is going to be even more 
important that we have these visa security teams at more than 
30 U.S. diplomatic posts where they are currently deployed. Can 
you commit to expanding the number of posts at which visa 
security teams are located? I should note that my staff is 
working with the Chairman's and Ranking Member's staff to do 
that, but is that something the Department can commit to us on?
    Ms. Duke. We are reviewing that right now, so I do not know 
if more--additionally, we are increasing vetting overall. But, 
that has been very useful to us.
    Senator Hassan. Well, we would look forward to working with 
you on that because I think there are a number of us that think 
that 30 is not enough, and we want to do everything we can to 
partner with you on that.
    I also wanted to touch on the issue of white supremacist 
and neo-Nazi threats. I want to echo my colleague from 
California's concerns. Mr. Chair, I think we need an absolutely 
thorough oversight effort in this regard focused specifically 
on the threats posed by white supremacists and neo-Nazis.
    I want to turn to you, Director Wray, because there are 
some complexities that go to domestic terrorism versus 
international terrorism. From an initial review, the FBI's 
ability to prevent and address acts of international terrorism 
appears to be very different from their ability to prevent and 
address domestic terrorism. For one, while domestic terrorism 
and international terrorism are defined in statute, as you 
pointed out, there is no criminal offense or charge, as I 
understand it, of domestic terrorism, although there is an 
international terrorism offense and charge on the books.
    Neal Katyal, the former Acting Solicitor General, said in a 
media interview that if the Charlottesville attacker had 
emerged from his car and announced that he carried out the 
attack in the name of ISIS, then he could have been charged 
with international terrorism.
    Is that true? And, would that be the case even though the 
attacker was American?
    Mr. Wray. We can charge ISIS supporters, whether they are 
American or foreign, under the various material support 
statutes and things like that. I will say, Senator, I just want 
to make sure that I am not confusing the Committee in some way 
about our effectiveness in the domestic terrorism space. Our 
approach in the terrorism arena in both international terrorism 
and domestic terrorism--and this is a product of the immediate 
post-9/11 era--is to look for every possible tool we have, and 
a lot of times the best charge may not--even in the 
international terrorism arena where we have a statute, may not 
be the terrorism charge. There may be reasons why it is 
simpler, easier, quicker, less resource intensive, and you can 
still get a long sentence with some of the other offenses.
    And so, that is really the approach we have been taking on 
the domestic terrorism front where a lot of times there are 
good, effective, very serious charges we can bring. And so, 
even though you may not see them from your end as a domestic 
terrorism charge, they are very much domestic terrorism cases 
that are just being brought under other criminal offenses.
    Senator Hassan. No, I do understand that, but I also am 
concerned about making sure that we are doing everything we can 
to go after these domestic terrorism groups who promote 
violence. So, I have just been trying to think through--let us 
say we had a case of neo-Nazism terrorism. As I understand it, 
the defining factor for a charge of international terrorism can 
be whether the ideology that is being espoused comes from 
outside of the United States. So, there is nothing American or 
inherently domestic about Nazis. So, if a neo-Nazi carries out 
a mass murder while yelling, ``Heil Hitler,'' that would 
certainly appear to be an ideology that originated from outside 
of America's borders. So, could they be considered 
international terrorists?
    Mr. Wray. Senator, I would have to think about that one a 
little bit. I am not sure that we would call that international 
terrorism, but we have brought neo-Nazi cases. We are going to 
continue to bring them when we have the proper predication and 
the elements of the offense. And, I have not been hearing from 
my folks that they feel hamstrung in that space. But, as I said 
to Senator Peters, we can always use more tools in the toolbox 
to try to be as effective as possible.
    Senator Hassan. Well, I thank you for that, and I think it 
just goes to the point that there are some real complexities 
here, and we want to make sure that we are giving you 
appropriate tools, recognizing the complexity of the domestic 
situation but also the real danger of these terrorist groups.
    With that, I thank all of you for your service very much 
and for being here today.
    Mr. Wray. Thank you, Senator.
    Chairman Johnson. Senator Carper.
    Senator Carper. Thank you. I apologize for being in and 
out. We have a bunch of hearings going on, and we also are on 
different committees, as you know. I am pleased to be able to 
participate, at least intermittently.
    My first question is not really a question. I just want to 
say something, and so I will just go ahead and say it. I had a 
good conversation with Admiral Peter Neffenger, who was our 
leader at TSA until earlier this year. A great leader. A great 
leader in the Coast Guard for years, as you know. But, I think 
it was on 9/11 this month, I think GAO released a report that 
found that TSA needs to take action to evaluate costs and 
effectiveness across its security countermeasures. The report 
from GAO found that TSA lacks some basic information to assess 
whether its programs are effective in deterring or detecting 
potential attacks on our aviation system.
    Under the previous administration, under Admiral 
Neffenger's watch, he and others worked to institute reforms at 
TSA. I thought they made a lot of progress, but they tried to 
institute reforms at TSA in order to improve detection 
capabilities, to improve training and workforce morale, speed 
screening, and partner with airlines and other private sector 
companies to invest in the 21st Century screening technologies.
    I understand that as his successor, Admiral Pekoske, who is 
also, I think, a very able leader--how lucky we could be to 
have two guys that qualified and that good as leaders. But, I 
was pleased to vote to confirm him with my other colleagues 
earlier this year.
    So, here is what I want to ask. I am just sort of asking as 
a favor, Ms. Duke, and that would be to ask you to work with 
Admiral Pekoske to take a look at the GAO report. You may have 
seen it already. Take a look at it and try to make sure that 
the needed training in acquisition reforms continue in order to 
ensure the continued security of our aviation system. Thank 
you.
    Ms. Duke. Absolutely. We are both committed to that.
    Senator Carper. Good. Thank you.
    And, now just one question on the revised travel ban for 
each of our witnesses. I think it was just last Sunday 
President Trump issued yet another Executive Order (EO) 
limiting travel from, I think, eight countries. This new travel 
ban is indefinite in length. The nationals from these countries 
will not be able to travel to the United States until such a 
time as the President sees fit to remove them from the list. 
None of the countries listed in the original travel ban or the 
new one have been associated with deadly terrorist attacks in 
the United States Some of them are currently suffering from 
humanitarian crises. And, in addition to imposing a new travel 
ban, it has been reported that President Trump intends to cut 
refugee admissions to some of the lowest levels in history. 
And, I have to think that some of these actions--the ban, the 
cut in refugee admissions--may have an adverse impact on our 
national security.
    So, I would just ask you, Ms. Duke, if I could, could you 
share with us any analyses that the Department has conducted to 
determine the cost and benefit of imposing a new ban? That 
would be my question of you. Can you share with us any analyses 
that the Department has conducted to determine the cost and 
benefit of imposing a new ban? And, to Mr. Wray, and to Nick, 
in terms of priority, would this travel ban be in your top, 
say, I do not know, five action items to take to prevent terror 
attacks on the homeland?
    First, Ms. Duke. Thank you.
    Ms. Duke. What we need is we need better identity 
management, better vetting of persons, and that is what this 
review was. We did a very thorough review of all the countries. 
We have not done a cost analysis because I do not think you 
could put a cost on letting a terrorist into the country. 
However, we have structured it, as you saw in the proclamation, 
that as soon as a country gives us the information, starts 
doing the information sharing under the three criteria, we do 
not want people to be on a travel restriction. It is not in the 
best interest. And so, we are hoping that this will give 
incentives for them to work with us.
    Additionally, I want to point out that refugees are not 
subject to the ban of any country.
    Senator Carper. OK. Thank you.
    Mr. Wray, Nick, the second question. In terms of priority, 
would this travel ban be, say, in your top five action items to 
take to prevent terror attacks on our homeland?
    Mr. Wray. Senator, I do not know that I have my priorities 
in that space into the list, but I would say that getting 
sufficient information from foreign countries to allow us to 
prioritize targets of interest is a very high priority for us 
because, as you probably know, the name of the game in this 
space is trying to make very difficult judgment calls under 
sometimes very tight time constraints about which subject is 
the highest-priority investigation, and we cannot do that 
without sufficient information from the countries of origin.
    Senator Carper. Nick.
    Mr. Rasmussen. The only thing I would add is, again, I do 
not know that I have a prioritization schema in mind that would 
rank our particular activities. As I said in response to one of 
the other Senators' questions earlier, our particular piece of 
this is to provide the best possible intelligence input into 
what is, as Director Wray said, a very complex decision and to 
make sure that we can do that in a repeatable, in a consistent, 
in a predictable way so that the State Department and 
Department of Homeland Security who end up owning these 
responsibilities can count on the best possible input from the 
intelligence community.
    We are going to forever be limited by the amount of 
information we have available to us, and so we are going to be 
in a constant effort to try to increase the pile of information 
that we are relying on to provide that input.
    Senator Carper. All right. And, I would just say in 
conclusion, thank you for your responses, but it seems peculiar 
to me--interesting, at least--that countries that have never 
apparently posed a threat to us in terms of a threat on the 
homeland, we are going to say, ``For whatever purpose you 
cannot come here. We are not going to allow you to travel to 
our Nation for school or for other reasons.'' And yet, there 
are other countries that have posed a real danger, and still 
do, and they are free to come and go. It just seems peculiar.
    Thank you, Mr. Chairman.
    Chairman Johnson. Senator Harris.
    Senator Harris. Secretary Duke, actually I asked one of my 
team members to just go quickly to the U.S. Citizenship and 
Immigration Services website to make sure it was still there, 
and it is, on page 6 of 27 of the frequently asked question 
(FAQs)--``Will the information I share''--this is the DACA 
applicant. ``Will the information I share in my request for 
consideration of DACA be used for immigration enforcement 
purposes?'' And, they are told in the answer in this document, 
``Individuals whose cases are deferred pursuant to DACA will 
not be referred to ICE.''
    I also have a two-page letter signed by Jeh Johnson on 
December 30, 2016, where he indicated, ``Since DACA was 
announced in 2012, DHS has consistently made clear that the 
information provided by applicants would be safeguarded from 
other immigration-related purposes.''
    So, I would ask you to familiarize yourself with these 
documents, because we are talking about 700,000 young people in 
this country right now who are in utter fear about their 
future, about their lives right now, their families are, their 
employers are, their friends are. And, you have a 
responsibility to be clear about what your agency is doing as 
it relates to keeping a promise to these young people and 
thinking about their situation right now and their future.
    I would also point out to you that I asked you 6 months ago 
during your confirmation hearing about this document, which was 
a memo, Homeland Security, indicating there were seven new 
priority enforcement areas, and the seventh, which reads, ``In 
the judgment of an immigration officer''--``They may have 
enforcement responsibilities if in their judgment that person 
poses a risk to public safety or national security.'' I asked 
you then what are the factors for consideration and how are you 
training your agents on how they should exercise that judgment, 
knowing that you have limited resources, and there are 
potentially a lot of people that could fall in that category. 
You indicated to me you would get back to me on how those 
agents are being trained, and you have not done that.
    On a separate matter, you have indicated on September 5th 
that DACA would be rescinded and that these individuals would 
have until October 5th to reapply; otherwise, they would fall 
out of status. And, my question to you is: Did your agency 
directly notify the DACA recipients that they will be eligible 
to renew their applicants? Did you notify them directly, or was 
it just through the press?
    Ms. Duke. No, we have not contacted each individual 
directly.
    Senator Harris. And, you have given them a month from the 
time that that word went out--one month only--to apply to renew 
their status, which requires them to submit many forms and fill 
out the information in those forms. It requires them by October 
5th to also provide a $495 application fee. Within 1 month it 
requires them to supply two passport photographs. Passport 
photographs cost between about $15 and $20. The last time I 
looked, Federal minimum wage is about $7.25 an hour. So, my 
question to you is: Given the responsibilities that they are 
required to meet to apply before October 5th, given also--and 
we have talked about it in this hearing--the impact of 
Hurricanes Harvey, Irma, and Maria, will you consider extending 
the deadline beyond October 5th for these kids to apply?
    Ms. Duke. I am just as passionate as you are about doing 
the right thing by people in America, and I commit to working 
with Congress to do the right thing. An unconstitutional 
program that only keeps them in 2-year limbo status is not the 
right answer for these----
    Senator Harris. So, are you willing to extend the deadline 
that you have already set given the circumstances of these 
natural disasters that have also occurred in the interim?
    Ms. Duke. We have not been notified by anyone that natural 
disasters have affected--I have looked into the process. There 
is a money issue, I agree with you there. But, the process 
itself is very simple. So, we will do what is right. It is an 
unconstitutional program, so that is constraining, and I hope 
that we can come up with a better solution through Congress.
    Senator Harris. Are 700,000 young people supposed to suffer 
because you did not figure out how to implement this program 
properly? Are 700,000 young people supposed to be terrified 
because they cannot come up with a lot of money within 1 month?
    Ms. Duke. It is not my position to come up with a statute. 
That would be Congress' responsibility.
    Senator Harris. Who came up with the decision that they 
would be given 1 month from September 5th to October 5th?
    Ms. Duke. That is something that we came up with to end the 
program in a compassionate manner.
    Senator Harris. I would ask you to consider extending that 
deadline.
    Chairman Johnson. Thank you, Senator Harris. I would just 
point out again that one of the reasons many of us asked 
President Obama not to use his Executive authority, what we 
believe is unconstitutional, is because it would create these 
types of issues. So, you know, certainly from my standpoint, I 
want to do everything I can to solve this problem in a very 
humane fashion. I am happy to work with you and any member on 
the other side of the aisle, together with my Republican 
colleagues, to fix this. We have 6 months to do it. Let us 
really work together in a bipartisan fashion to humanely----
    Senator Harris. I agree.
    Chairman Johnson [continuing]. Resolve this issue.
    Senator Harris. Let us pass the DREAM Act. I agree. A clean 
DREAM Act. I agree with you. Thank you, Chairman.
    Chairman Johnson. That is not exactly the best way of doing 
it bipartisan. So, again, hopefully there will be some give and 
take here and we can actually do things to secure our border as 
well.
    With that, again, I want to thank all of our witnesses, not 
only for your testimony, written and oral, and the time you 
have taken, but literally just the commitment you have made to 
this Nation. It is a 24/7 job. Every last one of your positions 
here, it is an enormous responsibility. And, this Committee 
thanks you sincerely for doing that.
    With this, the hearing record will remain open for 15 days 
until October 12th at 5 p.m. for the submission of statements 
and questions for the record. This hearing is adjourned.
    [Whereupon, at 12:13 p.m., the Committee was adjourned.]

                            A P P E N D I X

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
